<html>
<title> - LIBYA--NEXT STEPS IN U.S. RELATIONS</title>
<body><pre>[Senate Hearing 108-496]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-496

                   LIBYA--NEXT STEPS IN U.S. RELATIONS

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 26, 2004

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate


                    U.S. GOVERNMENT PRINTING OFFICE
94-557                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman
CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
MICHAEL B. ENZI, Wyoming             RUSSELL D. FEINGOLD, Wisconsin
GEORGE V. VOINOVICH, Ohio            BARBARA BOXER, California
LAMAR ALEXANDER, Tennessee           BILL NELSON, Florida
NORM COLEMAN, Minnesota              JOHN D. ROCKEFELLER IV, West 
JOHN E. SUNUNU, New Hampshire            Virginia
                                     JON S. CORZINE, New Jersey

                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                  (ii)




                            C O N T E N T S

                              ----------                              
                                                                   Page

Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, opening 
  statement......................................................     3
Burns, Hon. William J., Assistant Secretary of State, Bureau of 
  Near Eastern Affairs, U.S. Department of State, Washington, DC.     5
    Prepared statement...........................................     7
    Responses to additional questions for the record from Senator 
      Allen......................................................    34
    Responses to additional questions for the record from Senator 
      Biden......................................................    34
DeSutter, Hon. Paula A., Assistant Secretary of State for 
  Verification and Compliance, U.S. Department of State, 
  Washington, DC.................................................     8
    Prepared statement...........................................    11
    Responses to additional questions for the record from Senator 
      Biden......................................................    34
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     1

                                 (iii)

  

 
                  LIBYA--NEXT STEPS IN U.S. RELATIONS

                              ----------                              


                      THURSDAY, FEBRUARY 26, 2004

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:31 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Richard G. 
Lugar (chairman of the committee), presiding.
    Present: Senators Lugar, Chafee, Biden, Feingold, and Bill 
Nelson.


        opening statement of senator richard g. lugar, chairman


    The Chairman. This hearing of the Senate Foreign Relations 
Committee is called to order. Today the committee will examine 
a non-proliferation success in a country that may have seemed 
an unlikely candidate for such progress, even a short time ago.
    President Bush announced in December that Libya had 
committed to open its weapons program to international 
inspectors and to dismantle its weapons of mass destruction. 
This pledge followed a series of Libyan steps over the past 
year, beginning with the settlement of the Pan Am bombing 
claims, that appear to reflect Libya's desire to remove the 
burdens of the economic sanctions it has lived with for many 
years.
    I congratulate President Bush and his national security 
team for their persistence in pursuing this objective. Today we 
welcome Ms. Paula DeSutter, Assistant Secretary of State for 
Verification and Compliance, and Ambassador William J. Burns, 
Assistant Secretary of State for Near Eastern Affairs, to 
discuss American policy in the wake of the Libyan success story 
and how the United States can ensure that Libya implements its 
commitments.
    Since the announcement, Libya has allowed weapons 
inspectors of the International Atomic Energy Agency, the IAEA, 
to access its weapons sites. American officials have 
transported more than 55,000 pounds of sensitive Libyan 
equipment and documents to the Oak Ridge National Laboratory in 
Tennessee. Access to Libya's weapons program has resulted in a 
treasure trove of evidence exposing a nuclear black market that 
stretches from Libya to Pakistan and Malaysia.
    The seizure last October of a German ship bound for Libya 
carrying Malaysian-manufactured centrifuge components that can 
be used in making nuclear material helped initiate these 
revelations. Some commentators have asserted that Libya took 
this dramatic step because of the demonstration of United 
States resolve and our military power in Iraq. Others attribute 
Libya's action to the success of multilateral diplomacy or the 
weight of international sanctions imposed on Libya.
    We should not attempt to reduce the positive outcome in 
Libya to a single explanation. The Libyan regime faced complex 
choices that were framed by numerous economic, diplomatic, and 
military factors. For American policy, the bottom line is that 
the Bush administration, working with friends in the 
international community, was prepared to take advantage of this 
breakthrough. Now we must consider how to consolidate this 
success and how to expand upon it.
    We still cannot assume that Libya is committed absolutely 
to a responsible course. We cannot ignore its lack of 
democracy, its development of weapons of mass destruction, its 
record of support for terrorism, its past pursuit of 
destabilizing activities in North Africa and the Middle East.
    In addition, this week, the Libyan Prime Minister 
contradicted his government's official admission of 
responsibility for the Pan Am bombing by saying that Libya 
compensated the bombing victims to ``buy peace.'' Our witnesses 
may wish to share additional information about this incident 
and the administration's response.
    Initial reports by IAEA and American officials suggest that 
Libya is granting extraordinary access to its weapons programs. 
One non-proliferation official familiar with the Libyan 
situation commented privately that international authorities 
found out as much about Libya's weapons programs in 2 weeks as 
they did about Iran's program in 2 years.
    As these revelations progress, the United States must 
carefully re-evaluate its sanctions policies toward Libya. 
Today the White House announced that the United States will 
initiate the process of lifting five types of United States 
sanctions on Libya, including restrictions that prevent travel 
by Americans to that country.
    Libya's cooperation on weapons of mass destruction can lead 
to further improvements in relations between our countries. As 
President Bush has said, and I quote, ``as they demonstrate 
good faith, good faith will be returned,'' end of quote from 
the President.
    We need to assess the effectiveness of each of our 
sanction's policies and ask what actions should be required of 
Libya before a particular sanction is lifted. We must develop 
performance benchmarks to guide our policies with respect to 
Libya.
    The United States must also ensure that the critical work 
of non-proliferation is not delayed or diverted unintentionally 
by restrictions on our interactions with the Libyan Government. 
Our primary goals should be the complete deconstruction of 
Libya's weapons programs, the establishment of foolproof 
verification procedures, and the development of our 
understanding of how Libya fits into the international 
proliferation picture.
    The State Department's Non-Proliferation and Disarmament 
Fund, the NDF, has played the central role in getting U.S. 
personnel on the ground to begin this work. It is important to 
recognize that Congress gave NDF the unique authority and 
flexibility to respond to unanticipated non-proliferation 
emergencies and opportunities, notwithstanding existing 
sanctions.
    But NDF is a relatively small program geared for short-term 
emergencies. It does not have the size, scope, or experience to 
do dismantlement operations, to employ nuclear scientists, or 
to undertake longer-term non-proliferation efforts. Other 
programs will be necessary as we proceed in Libya, and these 
programs will require waivers on the lifting of some sanctions 
before they can be used.
    In particular, the Defense Department's Cooperative Threat 
Reduction program is well-equipped to deal with Libya's 
biological and chemical weapons. The Energy Department's 
Material Protection Control and Accounting program has the 
expertise to take apart Libyan nuclear weapons facilities and 
safely dispose of radioactive material. The State Department's 
experience in re-employing Russian weapons scientists may need 
to be engaged to get Libyan scientists out of the weapons 
business.
    Congress must be kept informed about Libya's progress in 
meeting its commitments so that we can identify when and where 
our laws or programs may need to change to allow for 
application of these various non-proliferation tools. As we 
dismantle Libya's weapons of mass destruction programs, we must 
simultaneously investigate how the Libyans were able to make 
such progress. In Libya, the United States and the IAEA have 
been shown evidence of a vast clandestine nuclear network that 
the Pakistani scientist, A.Q. Kahn, ran for many years.
    In addition, a recent IAEA Director General's report on 
Libya states that Libya exported uranium ore concentrate to an 
unidentified nuclear weapons state. That nuclear weapons state 
returned the material to Libya as refined uranium, which is 
useful to a nuclear weapons program. These extraordinary 
connections have relevance to our continuing efforts to prevent 
proliferation, particularly in Iran.
    The United States and the world welcome Libya's declaration 
as an example of how the international community can reduce 
proliferation threats. Now we must follow through to ensure 
that Libya fulfills its pledges, that all weapons and dangerous 
materials are controlled, and that our response sets useful 
precedents as we pursue non-proliferation goals elsewhere.
    We look forward to the testimony and analysis of our 
witnesses on these topics. Indeed, we welcome both of you. You 
are persons of vast experience in this area as well as in so 
many other areas in our government.
    I would like to call upon you, Secretary Burns, first of 
all, and then Secretary DeSutter. Your statements will be made 
part of the record in full. I will waylay your testimony for 
just a minute because of the timely appearance of my friend. I 
call now upon Senator Biden for his opening statement, and then 
we will have the statements of the witnesses.


           OPENING STATEMENT OF SENATOR JOSEPH R. BIDEN, JR.,
                             RANKING MEMBER


    Senator Biden. Mr. Chairman, again, thanks for convening 
this hearing and let me commend our witnesses for their work on 
securing Libya's renunciation of WMD. That's quite an 
accomplishment.
    The agreement with Libya could represent, and obviously 
none of us know, an important model for the way in which we 
confront new threats to our security. The combination of rogue 
states, weapons of mass destruction, and terrorism is in fact a 
new reality and it requires something beyond what we have done 
before. I would note parenthetically that we need something 
between the old doctrine of prevention out of the treaty of 
Westphalia and deterrence here. There's some new intermediate 
doctrine that we haven't worked out and we're wrestling with 
that now.
    But I've been calling for a new compact with our allies to 
deal with these dangers. Just as our allies need to add sticks 
to their carrots, we've got to add carrots to our sticks, and 
this agreement demonstrates that when it comes to changing the 
behavior of rogue regimes we have to apply pressure but also 
make it clear that there are some benefits to cooperation if 
they comply.
    Three previous administrations kept the pressure on Libya 
and kept the international community on board with sanctions 
and they forced Tripoli to recognize that to end its economic 
and political isolation it had to end its denials of 
responsibility for the horror of Pan Am 103 and its support for 
terrorism and end its request for weapons of mass destruction. 
And the Bush administration kept the pressure on.
    But--and this is critical in my view--it's also showed a 
willingness to engage with Libya and make clear what Tripoli 
stood to gain if it gave up its reckless behavior. And it 
joined Britain on the diplomatic track that has begun the 
process of bringing Libya back into the community of nations, 
at least the possibility of that.
    To be sure, there's a long, long way to go. The Libyan 
Prime Minister's recent comments denying responsibility for Pan 
Am 103 underscored the need for strict verification of Libya's 
commitments, and the comments were quickly and fully retracted, 
as they had to be. But the fact that they had that momentary 
relapse evidences this is a work in progress.
    But even as we move forward, Americans will never forget 
the past and the suffering of hundreds of mothers and fathers, 
sons and daughters, sisters and brothers, caused by the 
inhumane act of terror. And there's also a long, long way to go 
before Libya as a country and Libyans as a people meet their 
full potential. Getting out of the terrorist business and 
giving up weapons of mass destruction are critical steps 
forward, but in my view, and I suspect the view of our 
witnesses, only first steps.
    To survive and ultimately thrive in the 21st century, Libya 
is going to have to embrace the principles of liberal 
democracy, secular education, representative government, 
transparent economy, a free press, and a strong civil society, 
and that's going to take a long time. I'm not Pollyanna-ish 
about this.
    For now, Libya appears to have made a strategic break with 
the past. That's good for Libya, it's good for its neighbors, 
and indeed for the security of the people around the world. 
That strategic break and our pragmatic response also offers a 
road map for dealing, in my view, with other problem states. 
This is not a precise formula that can be easily applied to 
North Korea, Iran, and Syria, all different in the degree of 
difficulty, and none at all certain of positive outcome.
    It seems to me we have to continue to make clear that they 
stand to lose by seeking WMD, supporting terror, and spreading 
instability, and bang that case home. But we also have to 
overcome our bizarre fear of spelling out in detail what they 
might gain if in fact these rogue states change their minds.
    This administration seems to have not paid nearly as much 
attention, absent this issue, of the combination, as I said, of 
sticks and carrots. I think the formula you all put together 
including cooperation and coordination with other friends and 
allies is the right formula. Our experience with Libya shows, 
as Winston Churchill once said, jaw jaw can often accomplish 
more than war war.
    I know that our witnesses may be somewhat constrained in 
what they can say because we're not in closed session. 
Nonetheless, I look forward to them updating us on what 
progress has been made and what concerns they have as we move 
from here. And again, it's really good to have you here, and 
Bill, it's a particular--well, you guys earn a lot of credit. 
Congratulations.
    The Chairman. Thank you, Senator Biden.
    Secretary Burns, would you please proceed? If I could ask 
you both to summarize comments perhaps in a 10-minute 
timeframe, that would be desirable because that will give us 
opportunities for questions. We will have a rollcall vote, I'm 
advised, about 4 or a few minutes thereafter, so we want to 
make certain that we have a full statement by both of you and a 
good dialog. Thank you.

  STATEMENT OF HON. WILLIAM J. BURNS, ASSISTANT SECRETARY OF 
STATE, BUREAU OF NEAR EASTERN AFFAIRS, U.S. DEPARTMENT OF STATE

    Mr. Burns. Thank you very much, Mr. Chairman. It's a 
pleasure to be here again, and with your permission, I'll 
submit my written statement for the record and just summarize 
briefly, hopefully less than 10 minutes.
    I really am delighted for this opportunity to speak with 
you and the other members of the committee on developments in 
Libya. They do, as both you and Senator Biden have already 
said, represent a major advance in our collective efforts to 
halt state-sponsored terrorism and the proliferation of the 
world's most dangerous weapons.
    After decades of hostility, U.S.-Libyan relations are at a 
turning point. Since its historic announcement on December 19, 
Libya has taken significant steps to implement its commitment 
to eliminate weapons of mass destruction and the missile 
systems to deliver them, as well as to cooperate in the war on 
terrorism. In so doing, it has begun to clear a path to better 
relations with the United States.
    Our engagement with Libya will be guided by two overarching 
principles. First, Libyan action, not promises or an artificial 
time line, will drive U.S. policy. Second, any evidence of 
Libyan back-tracking on its commitments will result in a re-
evaluation of our bilateral engagement. We were gravely 
concerned by the Libyan Prime Minister's public equivocation 
over Libya's acceptance of responsibility for the Pan Am 103 
bombing. We sought and received an immediate, official public 
retraction. We have been crystal clear that U.S.-Libyan 
relations can only be rebuilt if we develop confidence in the 
Libyan regime's commitment to repudiate its past record of 
support for terrorism and search for weapons of mass 
destruction. We will not compromise this principle.
    As Assistant Secretary DeSutter will describe in more 
detail, Libyan cooperation since it's December 19 commitment to 
eliminate weapons of mass destruction and longer-range missile 
programs has been excellent. In recognition of that tangible 
progress, I met with Libyan representatives in London on 
February 6 and previewed the steps announced by the White House 
earlier today. These include the lifting of the passport 
restriction on travel to Libya, modification of sanctions to 
permit travel-related expenditures in Libya, permission for 
U.S. companies with pre-sanctions holdings to negotiate the 
terms of their re-entry, agreement to open a Libyan interests 
section in Washington, the dispatch of a U.S. health delegation 
to assess potential cooperation, and an invitation for a Libyan 
delegation to come and discuss future educational opportunities 
for Libyan students in the United States.
    I emphasized in the February 6 meeting that tangible 
progress in our bilateral relationship would depend upon 
continued good-faith implementation by Libya of its commitments 
on terrorism, WMD, and missiles. I also stressed that Libyan 
actions to reform its political and economic system, to 
institute and respect human rights, and to play a constructive 
role in the region will be important factors in shaping a more 
normal relationship.
    This is a broad agenda requiring greater diplomatic 
engagement with Libya. We plan to augment the number of U.S. 
diplomats at our interest section in Tripoli as required and 
expect to notify the Congress soon about our intention to 
establish a free-standing liaison office. This will not 
constitute a reopening of our embassy, but reflects the need to 
conduct a greater volume of business directly with the Libyan 
Government.
    Libya remains on the list of state sponsors of terrorism. 
Before this changes, we will need to confirm that Libya has 
implemented a strategic decision to repudiate terrorism as a 
tool of foreign policy and to break any residual ties it may 
have to any terrorist organization. This evaluation is ongoing.
    We place the highest importance on Libya fully adhering to 
its Pan Am 103 commitments, including on terrorism. These 
undertakings were secured in large measure as a result of the 
determination and the courage of the families of the victims of 
Pan Am 103. They can take pride in helping push Libya out of 
the terrorism business and setting a model for other states, 
which will save innocent lives in the future.
    Mr. Chairman, U.S. diplomacy, sanctions, and a clear 
commitment to take all steps necessary to halt the spread of 
weapons of mass destruction helped persuade the Libyan 
leadership that a radical course correction was required for it 
to safeguard its interests and the well-being of its people.
    As Libya takes credible steps to rejoin the international 
community, we will continue to seek the guidance and the 
cooperation of this committee, the Congress, and many others to 
shape an appropriate response, including the easing of other 
economic sanctions. We will work closely with you to ensure 
that the Congress and the administration deliver a strong 
unequivocal message that Libya has made the right choice, in 
fact the only choice, for improved relations with the United 
States and the international community. Thank you very much.
    [The prepared statement of Mr. Burns follows:]

              Prepared Statement of Hon. William J. Burns

    Thank you Mr. Chairman for this timely opportunity to speak with 
members of the Committee on a major foreign policy development that 
reflects the close cooperation between the Executive and Legislative 
branches and constitutes a key achievement in Administration efforts to 
halt state-sponsored support for international terrorism and the 
proliferation of the world's most dangerous weapons.
    After decades of hostility, U.S.-Libyan relations are at a turning 
point. On December 19, Libya made an historic commitment to eliminate 
its weapons of mass destruction programs, and the missile systems to 
deliver them, and reiterated its intention to cooperate in the war on 
terrorism. Since December 19, Libya has taken significant and, in some 
cases, irreversible steps to implement these commitments.
    I want to underscore that U.S. policy towards Libya will be driven 
by Libyan action, not promises or an artificial time line. Libya's 
actions to date have been substantial, serious and consistent with its 
pledge to dismantle WMJ) programs and abandon terrorism.
    I also want to underscore that when we see evidence of Libyan 
backtracking on any one of these commitments, we will immediately 
reevaluate our bilateral engagement. For example, there can be no 
equivocation by the Libyan government over its acceptance of 
responsibility for the Pan Am 103 bombing. The comments by Libyan Prime 
Minister Ghanem to the BBC on February 24 were a direct contradiction 
of Libya's written statement to the United Nations Security Council, 
taking responsibility for the actions of its officials. We sought and 
received an official retraction. U.S.-Libyan relations can only be 
rebuilt if we develop confidence in the Libyan regime's commitment to 
repudiate its past record of support for terrorism and pursuit of 
weapons of mass destruction. We will not compromise this principle.
    Since December 19, Libya has invited U.S. and U.K. experts, along 
with personnel from the International Atomic Energy Agency and the 
Organization for the Prohibition of Chemical Weapons, to assist Libya 
in destroying the dangerous legacy of its decades-long effort to obtain 
and deploy chemical and nuclear weapons, and longer range ballistic 
missiles. Libyan cooperation has been excellent, as Assistant Secretary 
DeSutter will discuss in more detail. Libyan officials have matched 
their public commitment to voluntarily eliminate these programs with 
private actions that reflect this historic change of course.
    In recognition of the initial steps taken by the Libyan regime to 
address our terrorism, WMD and missile concerns, I met with 
representatives of the Libyan government in London on February 6 to 
begin a political dialogue about the future of U.S.-Libyan relations. I 
previewed the first steps that the Administration is prepared to take 
in response to concrete actions by Libya to fulfill its commitments.
    These steps include: the lifting of the passport restriction on 
travel to Libya; the modification of executive order sanctions to 
permit expenditures for travel to Libya; the issuance of licenses for 
U.S. companies with presanctions holdings to negotiate the terms of 
their re-entry, subject to U.S. approval before implementation or the 
subsequent lifting of relevant U.S. sanctions; agreement to establish a 
Libyan Interests Section in Washington D.C.; the sending of a U.S. 
health delegation to Libya to assess potential cooperation in areas 
such as disease prevention; and the agreement to receive a Libyan 
delegation to discuss future educational opportunities for Libyan 
students in the U.S. and related topics. In addition, I reiterated U.S. 
interest, working in concert with the U.K., to discuss programs for the 
retraining or redirection of Libyan scientists, and commitment to 
assist Libya in converting its Tajura research reactor so it would no 
longer use highly enriched uranium.
    During this discussion, I emphasized that progress in our bilateral 
relationship would depend upon continued, good faith implementation by 
Libya of its own public commitments on terrorism, WMD, and missiles. In 
turn, I underscored the Administration's willingness to reassess the 
broad range of sanctions against Libya. I also clarified that while 
decisions to ease or lift sanctions will be a function of Libyan action 
on WMD, missiles and terrorism, the tenor of our bilateral relationship 
and the pace and degree to which relations are normalized in the future 
also will reflect Libyan actions to reform its political and economic 
system, to institute and respect human rights, and to play a 
constructive role in the region.
    Evidence of our new relationship with Libya can be seen on the 
ground in Tripoli. On February 8, the first American diplomat was 
posted to the U.S. Interests Section in Tripoli. We now have five 
diplomats in Libya, the first long-term U.S. diplomatic presence in 
Tripoli since the 1980 closure of the American Embassy. The work of the 
U.S. staff at the Interests Section is complemented by an increasing 
number of official U.S. delegations and teams, whose objective is to 
support the activities of our WMD experts as well as to engage on 
issues of mutual interest. One example of the latter is the Libyan 
government's invitation for a U.S. team to conduct a joint search for 
the remains of two American airmen, one of whom has been missing since 
1943.
    At present, the U.S. Interests Section in Tripoli functions under 
our protecting power, the Belgian Government. In the near-term, we 
anticipate notifying Congress of our intent to establish a freestanding 
Liaison Office in Tripoli. It will not constitute a reopening of an 
Embassy, but will reflect our need to conduct more ``normal'' business 
directly with the Libyan government as a consequence of the work 
associated with the our cooperation in eliminating WMD, as well as by 
the increased travel of Americans, including American congressional 
delegations, to Libya. It is premature at this stage to reopen an 
Embassy, which should come later in the process of Libya's 
implementation of its WMD, missile and terrorism commitments.
    Libya remains on the list of State Sponsors of Terrorism. Before 
this changes, we will need to confirm that Libya has implemented a 
strategic decision to repudiate terrorism as a tool of foreign policy 
and to break any residual ties it may have to any terrorist 
organization. This evaluation is ongoing. As we have noted in 
successive ``Global Trends in Terrorism'' reports, Libya has taken 
steps to distance itself from terrorism and to cooperate in the global 
war against terrorism. In 2003, there were further, positive 
developments: the Libyan government reiterated assurances to the UN 
Security Council that it had renounced terrorism, undertook to share 
intelligence on terrorist organizations with Western intelligence 
services, and took steps to resolve matters related to its past support 
of terrorism, including addressing the requirements of the United 
Nations for the terrorist bombing of Pan Am 103.
    We place the highest importance on Libya fully adhering to its Pan 
Am 103 commitments, including on terrorism. These undertakings were 
secured in large measure as a result of the determination and courage 
of the families of the victims of Pan Am 103. They can take pride in 
helping push Libya out of the terrorism business and setting a model 
for other states, which will save innocent lives in the future. In 
future discussions with Libyan officials, I will continue to emphasize 
the importance of this issue for improving U.S.-Libyan relations. I 
will also use this newly available channel to raise other concerns we 
may have about Libyan policies, including on issues in Africa and the 
Middle East.
    Mr. Chairman, U.S. diplomacy, sanctions, and a clear commitment to 
take all steps necessary to halt the spread of weapons of mass 
destruction helped persuade the Libyan leadership that a radical course 
correction was required for it to safeguard its interests and the well-
being of its people. As Libya takes credible steps to rejoin the 
international community, we will continue to seek the guidance and 
cooperation of this committee, the Congress, and many others to shape 
an appropriate response, including the easing of other economic 
sanctions. We will work closely with you to ensure that the Congress 
and Administration deliver a strong, unequivocal message that Libya has 
made the right choice, in fact the only choice, for improved relations 
with the United States and the international community.

    The Chairman. Thank you very much, Secretary Burns.
    Secretary DeSutter.

  STATEMENT OF HON. PAULA A. DeSUTTER, ASSISTANT SECRETARY OF 
STATE FOR VERIFICATION AND COMPLIANCE, U.S. DEPARTMENT OF STATE

    Ms. DeSutter. Thank you very much, Mr. Chairman, Senator 
Biden, members, for the opportunity to discuss the U.S. 
Government's assistance to Libya in its elimination of its 
weapons of mass destruction and MTCR-class missile programs. 
We've submitted a full statement, but I would highlight several 
things from that statement.
    Two things I would emphasize to begin. First, the WMD 
dismantlement process in Libya is ongoing and moving forward 
rapidly. The second is that the Libya success is part of an 
overall non-proliferation strategy set forth by the President 
and implemented by Secretary Powell and Under Secretary Bolton, 
and I am honored to be part of their team.
    As a verifier in the world of weapons of mass destruction, 
I am not usually full of good news, but the success of Libya is 
a ray of light in the otherwise dark world of the WMD black 
market. Libyan efforts to date and their cooperation are 
consistent with Colonel Qadhafi's commitment to rid Libya of 
WMD and MTCR-class missiles. We have removed from Libya 
significant and dangerous elements of its nuclear weapons 
program and key guidance parts from Libya's most advanced 
missile program and are preparing to remove more.
    In the first phase of our efforts on the ground in Libya, 
which occurred during the last half of January, we removed 
detailed nuclear weapon designs that Libya had acquired as part 
of its weapons program. These designs had been purchased from 
the nuclear black market network of Pakistani scientist, A.Q. 
Kahn. The weapons designs were handed over to the joint U.S.-
U.K. team on January 20 and flown out of Libya aboard a 
chartered aircraft in the custody of State Department personnel 
on January 22.
    Later that week, we also removed several containers of 
gaseous uranium hexafluoride, centrifuges from Pakistan's Kahn 
Research laboratories, some of which were still in their 
original packing containers, a large number of additional 
centrifuge parts and equipment and centrifuge documentation.
    On the missile front, we received a detailed description of 
a range of Libyan missile research and development activities 
and removed from Libya five SCUD-C guidance sets, including 
their gyroscopes, thereby making inoperable all of Libya's 
existing SCUD-C missiles, produced with extensive assistance 
from North Korea.
    All these items and materials were loaded aboard a large 
cargo aircraft in Tripoli and flown safely and securely home on 
January 26 to Knoxville, Tennessee. The Department of Energy 
has stored the sensitive nuclear materials at Oak Ridge.
    I haven't had much of a chance to sit back and ponder these 
momentous changes, but I would have been amazed 3 months ago if 
someone had told me that much of the most sensitive Libyan 
nuclear material was in Tennessee and not in Tripoli. This 
enormous effort by our teams in Libya and Washington was 
accomplished by the remarkable effort of many in the State 
Department and other government experts from the Defense 
Department, the CIA, and the Energy Department.
    It has been a rewarding experience for me to coordinate 
their efforts.
    I should also emphasize the importance in this process of 
the State Department's Non-Proliferation and Disarmament Fund. 
Libya has long faced some of the most severe economic and 
political sanctions the United States has ever imposed, but the 
same restrictions that have so successfully imposed pressure on 
Libya greatly restricted our ability to conduct operations 
there in order to implement the trilateral elimination and 
verification program. NDF has proven indispensable in that it 
is one of the few funds available with the requisite fiscal 
authority.
    The Libyans have also been committed to the process and 
their courageous determination to rid themselves of programs 
that had lasted decades is one that ought to be commended. I 
cannot let this opportunity go without thanking our British 
allies who have been true partners in this effort.
    While much has been done, it is only a start. Our teams 
returned to Libya on February 14 and we are well underway in 
implementing the next phase of our project. We have already 
brought out of Libya much of the most proliferation-sensitive 
nuclear items, but only a small percentage of the nuclear 
equipment by volume. Even as I speak with you today, for 
instance, our experts are working with Libya to inventory, 
pack, and remove a large quantity of additional equipment 
related to Libya's nuclear centrifuge program.
    We are also working to help Libya convert its Tajura 
reactor to low enriched uranium fuel. We will also help to 
redirect Libyan WMD personnel to more productive ends, and 
we've got at the head of that project one of the people who is 
very instrumental in doing the redirection process with Russia.
    On the chemical weapons front, there remained a large 
stockpile of chemical weaponry and a sizable stockpile of CW 
agents still to be destroyed. We have been assisting Libya in 
preparing their initial CWC declaration, which is due to the 
OPCW on March 6. We will be working closely with Libya and the 
OPCW to determine how best to destroy Libya's CW and precursor 
agent stockpiles. We will also investigate the status of 
Libya's past efforts regarding biological weapons.
    On the missile front, we are working with Libya to ensure 
that it meets its goal of not retaining MTCR-class missiles or 
the capability to produce them.
    As an example of the dramatic turn of events, 3 months ago, 
our chemical experts in Washington were analyzing what the 
chemical weapons facility at Rabta might contain. These same 
experts are now walking freely through Rabta.
    This first phase of the process also illustrates the 
cooperative relationship we have developed, both with the 
Organization for the Prohibition of Chemical Weapons, the OPCW, 
and the International Atomic Energy Agency. We have enjoyed a 
good working relationship with the OPCW and Director General 
Pfirter. Also, Under Secretary Bolton traveled to Vienna on 
January 19 to join his British counterpart, William Ehrman, for 
discussions with IAEA Director General ElBaradei, about how 
best to coordinate the trilateral Libya-U.S.-U.K. elimination 
and verification project with the agency. Their agreement 
formed the basis of a cooperative approach that has worked well 
on the ground.
    I'd like to now put our dealings with Libya into the 
broader context of the administration's non-proliferation 
policy. In a post-9/11 world, our enemies are often unseen and 
the dangers we face are heightened by the black market WMD 
trade. The President has developed a bold strategy to use every 
tool at our disposal to halt the spread of these weapons. As he 
said in his recent speech at the National Defense University, 
there is consensus among nations that proliferation cannot be 
tolerated, yet this consensus means little unless it is 
translated into action.
    The President means it when he says we must translate the 
consensus into action. The actions we use depend on the 
situation. We use diplomacy at all times, economic pressure 
when we can, military pressure when we must. We have made 
steadfast efforts over the past 3 years to dramatically change 
the cost-benefit analysis of proliferators and would-be 
proliferators around the world. We have used the sanctions laws 
you wrote and have penalized proliferators by imposing 
sanctions on them far more aggressively than in previous 
administrations.
    We have organized like-minded friends to improve our 
collective abilities to interdict WMD-related shipments and 
have shown ourselves more than willing to take dramatic action, 
even to the point of deposing a cruel dictator in Iraq who was 
intent upon developing such weapons. We have isolated and 
pressured out states dedicated to developing WMD and engaged 
our friends and allies in a range of multinational diplomatic, 
economic, and even military coalitions to combat this danger.
    Thanks to our efforts proliferation has today become 
riskier and more uncertain, and we are now sending the message 
that the pursuit of WMD brings not security but insecurity. At 
the same time, we have made clear that countries that abandon 
such dangerous pursuits can enjoy the prospect of improved 
relations with the United States and our friends.
    One of the big issues of the day is whether our 
intelligence in Iraq was right, and if not, why it went wrong. 
I am certainly not here to discuss that issue, but I do want to 
discuss in broad terms the effectiveness of our intelligence in 
Libya. We had extensive intelligence reporting on Libya's WMD 
programs prior to the December 19 announcements. What we have 
discovered so far in Libya showed that our intelligence was 
right on the mark in Libya, particularly in the nuclear arena.
    There are always surprises in intelligence. It's not an 
exact science, and in Libya we were surprised by the extent of 
some of the WMD programs. But in terms of being able to ask the 
right questions of the Libyans, of being able to understand the 
goals of the programs, and in understanding their procurement 
network, we were well-served by the intelligence community. 
Without their excellent work, I do not think we would be having 
the success we are having now in Libya.
    To summarize, I would say that Colonel Qadhafi made a 
historic decision to bring his country into compliance with 
crucial treaties banning weapons of mass destruction. This was 
not an easy decision for him to make and he deserves credit for 
doing so. The United States, the United Kingdom, and Libya have 
worked together as a team to eliminate Libya's WMD programs to 
normalize relations between Washington and Libya. We only hope 
that states with even more advanced nuclear programs like Iran 
and North Korea will learn from Libya's example and agree to 
rejoin the community of civilized nations and give up these 
terrible weapons.
    Thank you for inviting me and I would welcome any questions 
that you would have.
    [The prepared statement of Ms. DeSutter follows:]

              Prepared Statement of Hon. Paula A. DeSutter

    Mr. Chairman, Senator Biden, members of the committee, thank you 
for the opportunity to discuss the U.S. Government's assistance to 
Libya in the elimination of its Weapons of Mass Destruction (WMD) and 
MTCR class missile programs.
    On December 19, 2003, Libya issued a pathbreaking statement, 
announcing that Libya had been conducting talks with the United States 
and the United Kingdom about weapons of mass destruction, and had 
already shown U.S. and UK experts ``the substances, equipment and 
programs''--including centrifuges for uranium enrichment and 
``equipment to carry chemical substances''--Libya possessed that 
``could lead to the production of internationally banned weapons.''
    The Libyan government announced that it had, of ``its own free 
will,'' agreed ``to get rid of these substances, equipment and 
programmes and to be free from all internationally banned weapons.'' 
Libya also declared that it had ``decided to restrict itself to 
missiles with a range that comply with the standards of the [Missile 
Technology Control Regime]'' (a range of at least 300 km and a payload 
of at least 500 kg). Libya declared its intention to comply in full 
with the Nuclear Non-Proliferation Treaty (NPT) and the Biological 
Weapons Convention (BWC), and that it intended to sign the IAEA 
Additional Protocol and adhere to the Chemical Weapons Convention 
(CWC). All of these remarkable steps, Libya announced would be 
undertaken ``in a transparent way that could be proved, including 
accepting immediate international inspection.''
    I have been involved in verification for a long time, and the 
opportunity presented by Libya's decision is unique. This is one of 
those rare times that a state has volunteered to rid itself of its WMD 
programs--and it is a first for a state sponsor of terror to do so 
without regime change. Helping Libya to achieve success in fulfilling 
these commitments is an excellent step in its own right. Perhaps even 
more importantly, we must do our best to ensure that Libya's decision 
stands as a model for other proliferators to mend their ways and help 
restore themselves to international legitimacy.
    As President Bush declared on December 19 just after the Libyan 
announcement, Colonel Gadhafi had made a decisive commitment that, when 
fulfilled, would make the world a safer place. The President pledged 
that as Libya fulfills its commitments and demonstrates its 
seriousness, the path would be open to better relations with the United 
States and other free nations. President Bush expressed his hope that 
Libya would thereby be able to help regain a secure and respected place 
among nations. But let me emphasize this one point: improvement in 
Libyan-American relations is subject to progress on the WMD 
dismantlement front.
    Before I get into the details of this project let me just say that 
Libya's efforts reflect very substantial progress in meeting its 
commitment to rid itself of its WMD and MTCR-class missile programs. To 
date, Libya has cooperated closely with our teams, with our British 
partners and international organizations. With Libya's agreement, we 
removed significant and dangerous elements of its nuclear weapons 
program and key guidance parts from Libya's most advanced missile 
program and stand ready to remove more still.
    Assistant Secretary Burns will discuss the political and diplomatic 
track and our plans for diplomatic relations with Libya. I am here to 
describe our efforts in assisting Libya in dismantling its Weapons of 
Mass Destruction and MTCR-class missile programs.

             BACKGROUND: U.S. COUNTER-PROLIFERATION POLICY

    It may be helpful if I begin, however, by putting the Libya effort 
into the context of this Administration's counter-proliferation policy. 
With an eye to the terrible threat to U.S. national security 
interests--and to the lives and well-being of thousands or perhaps 
millions of innocent people--posed by the proliferation of weapons of 
mass destruction (WMD) around the world, the President has developed a 
bold strategy to use every tool at our disposal to halt the spread of 
these weapons. We use diplomacy at all times, economic pressure when we 
can, military pressure when we must. The President, indeed the entire 
U.S. Government, has demonstrated a strong commitment to the goal of 
nuclear, chemical and biological nonproliferation. This commitment has 
had a galvanizing effect on the world's views on the trade of WMD.
    We have made steadfast efforts over the past three years to change 
dramatically the cost-benefit calculations of proliferators and would-
be proliferators around the world. We have penalized proliferators by 
imposing sanctions on them far more aggressively than during the 
previous administration; we have organized like-minded friends to 
improve our collective abilities to interdict WMD-related shipments; 
and we have shown ourselves more than willing to take dramatic action--
even to the point of deposing a cruel dictator in Iraq who was intent 
upon developing such weapons.
    We have isolated and pressured outlaw states dedicated to 
developing WMD, and engaged our friends and allies in a range of 
multinational diplomatic, economic, and even military coalitions to 
combat this danger. Thanks to our efforts proliferation is today 
becoming riskier and more uncertain, and we are now sending the message 
that the pursuit of WMD brings not security but insecurity. At the same 
time, we have made clear that countries that abandon such dangerous 
pursuits can enjoy the prospect of improved relations with the United 
States and our friends.

                         ORIGINS OF THE PROJECT

    In March of 2003, Libya made quiet overtures to the UK and U.S. 
intelligence services about ``clearing the decks'' with regard to WMD. 
This matter was handled as a matter of the utmost secrecy within the 
U.S. and UK governments. In the U.S., in fact, the secret discussions 
that began in March involved only a handful of officials.
    Even as the discussions continued in October 2003, the U.S., UK, 
German and Italian governments worked together to arrange the diversion 
of a shipment of centrifuge components bound for Libya. These 
components had been secretly purchased on the international nuclear 
black market from the illicit Pakistan-based nuclear smuggling network 
headed by Abdul Qadeer Khan. It was clear, at that point, that we knew 
a great deal about Libya's secret nuclear weapons program. To its 
credit, Libya increased its cooperation with us in October, and 
permitted joint U.S. and UK teams to secretly visit a number of WMD and 
missile-related facilities in Libya.
    During two visits to Libya by these teams--in October and then 
December of 2003--Libya made available a great deal of information 
about its clandestine programs. The substantial knowledge of the 
Intelligence Community regarding Libya's WMD and missile programs was 
invaluable during these discussions. These visits laid the groundwork 
for all the successes we are pleased to report since Colonel Gadhafi's 
groundbreaking announcement on December 19.

                    THE ROLE OF THE STATE DEPARTMENT

    After the Libya effort became public in December, the role of 
coordinating this remarkable program fell to the State Department. 
Today, we coordinate an effort that quickly came to involve not only 
multiple bureaus within the Department but also a range of interagency 
participants including the Department of Energy, the Defense 
Department, and the CIA. The Department's role has been overseen by 
Under Secretary John Bolton, under whose leadership I am coordinating 
the day-to-day effort, including the interagency Proliferation Strategy 
Policy Coordinating Committee.
    Within the Department, the Nonproliferation (NP) and Arms Control 
(AC) Bureaus have also played instrumental roles, and we have worked 
hand in glove with the Bureau of Near Eastern Affairs (NEA). Our effort 
has also enjoyed the close personal involvement and support of 
Secretary Powell and Deputy Secretary Armitage--who have been 
instrumental in our success so far. The Department of Energy's National 
Nuclear Security Administration (NNSA) and the Defense Department's 
Defense Threat Reduction Agency (DTRA) have also contributed vital 
personnel and expertise to our incountry operations.
    It is also worth emphasizing how cooperatively we have been working 
with our British allies in this important project. From the very 
beginning--in the secret Libyan discussions in 2003--the U.S. and UK 
have worked together very closely. The successes achieved to date stand 
as a testament to our two governments' shared counter-proliferation 
goals and firm commitment to the Libyan elimination and verification 
effort. Our partnership in this project has been crucial to its 
success.

                       ESTABLISHING THE FRAMEWORK

    The basic architecture for our approach to the Libyan elimination 
and verification project was established in late December of last year. 
We began, in early January, by developing a series of papers approved 
by the U.S. interagency process and carefully coordinated with our 
British partners. These papers spelled out in some detail our proposals 
for how to help Libya fulfill its December 19 commitments with respect 
to nuclear, chemical, biological, and missile programs.
    I'd like to take a moment to sketch the basic contours of this 
program. Our program is aimed to assist Libya in promptly identifying 
and securing proliferation-sensitive items, eliminating all elements of 
its nuclear and chemical weapons programs, restricting its missile 
efforts in accordance with MTCR standards, and helping it demonstrate 
effective transparency of its biological activities. We also proposed 
to help Libya with its declarations to the International Atomic Energy 
Agency (IAEA) and the Organization for the Prohibition of Chemical 
Weapons (OPCW). To facilitate this work, and to help provide confidence 
that declaration and elimination activities are based upon complete and 
accurate information, we also proposed to conduct surveys and other 
activities to evaluate the extent of Libya's programs. We also proposed 
a tentative timeline for the first portions of the elimination and 
verification effort.
    This was an ambitious program, but our four papers outlining our 
nuclear, chemical, biological, and missile proposals--along with an 
overarching ``common elements'' paper, which was translated into 
Arabic--were presented to the Libyans by NSC, CIA, and State Department 
officials at a meeting in London on January 8. At that meeting, the 
three parties agreed upon a ``checklist'' of priority items to be 
removed during the first visits of the bilateral and interagency teams 
assisting Libya with elimination and verification. That was also the 
same week that Libya made its first legal step down the road toward WMD 
elimination, by acceding to the Chemical Weapons Convention.

                 U.S. ORGANIZATION FOR THE LIBYA EFFORT

    Organizationally, we established a structure that revolved around a 
Washington-based coordination effort centered in my bureau but closely 
involving experts from the NP and AC bureaus, as well as interagency 
participants. We quickly set up experts' groups in the various subject-
matter areas--nuclear, chemical, biological, and missile--to provide 
the overall technical guidance and advice needed to direct 
corresponding subject-matter teams in Libya. We have since created 
additional teams to work on the conversion of Libya's Tajura research 
reactor to low enriched uranium (LEU), and on developing ways to 
redirect Libyan WMD and missile scientists, engineers, and technicians 
to civilian pursuits. These groups work through a small coordination 
cell in the VC bureau, which also overseas the work of our in-country 
personnel. We selected Ambassador Don Mahley of the Anns Control Bureau 
to be the Senior WMD Representative in Libya, where he coordinates the 
work of the technical assistance groups and works closely with his 
Libyan hosts.
    I should also emphasize the importance in this process of the State 
Department's Nonproliferation and Disarmament Fund (NDF). Libya has 
long faced some of the most severe economic and political sanctions the 
U.S. has ever imposed. But the same restrictions that have so 
successfully imposed pressure on Libya greatly restrict our ability to 
conduct operations there in order to implement the trilateral 
elimination and verification program. NDF has proven indispensable in 
that it is one of the few funds available with the requisite fiscal 
authority. It is hard to express just how central NDF has been to our 
successes so far. We have spent around $2.5 million in NDF funds so far 
in support of our activities in Libya, and NDF personnel have been 
instrumental in working through the innumerable logistical and 
paperwork problems that inevitably arise when doing such complicated 
things under such unusual circumstances. With NDF, I can assure you, 
Congress has been getting huge value for its nonproliferation dollar.

                      FIRST WMD ELIMINATION PHASE

    Pursuant to the January 8 London agreement, the State Department-
led teams arrived in Libya for the first time on January 18. We enjoyed 
outstanding cooperation from our Libyan counterparts, who took very 
good care of our personnel. They allowed our teams to visit any 
location, and they were forthcoming about the myriad aspects of Libya's 
WMD and missile development programs.
    It was, in fact, remarkable how much the Libyan, U.S., and UK 
effort accomplished during its first month. By the time our first teams 
left Libya on January 29, we had already eliminated some of the most 
proliferation-sensitive aspects of Libya's WMD and missile programs.
    Our first step was to remove detailed nuclear weapons designs Libya 
had acquired as part of its weapons program. These designs had been 
purchased from the nuclear black market network of Pakistani scientist 
A.Q. Khan. The weapons designs were handed over to the joint U.S./UK 
team on January 20, and flown out of Libya aboard a chartered aircraft 
in the custody of State Department personnel on January 22.
    Later that week we also removed several containers of gaseous 
uranium hexafluoride (UF6), centrifuges from Pakistan's Khan Research 
Laboratories--some of which, of the advanced ``P-2'' variety, were 
still in their original packing containers--a large number of 
additional centrifuge parts and equipment, and centrifuge 
documentation.
    On the missile front, we received a detailed description of a range 
of Libyan missile research and development activities, and removed from 
Libya five SCUD-C guidance sets, including their gyroscopes, thereby 
making inoperable all of Libya's existing SCUD-C missiles produced with 
extensive assistance from North Korea.
    All these items and materials were loaded aboard a large cargo 
aircraft in Tripoli and flown safely and securely on January 26 to 
Knoxville, Tennessee. The Department of Energy has stored the sensitive 
nuclear materials at Oak Ridge.
    During this U.S./UK team visit, at our suggestion, Libya began 
consolidating its stockpile of CW agent at a more secure location in 
order better to safeguard it against theft by terrorists and make 
easier its eventual destruction. U.S. and UK experts have also been 
working closely with Libya to help it prepare its initial CWC 
declaration. As part of that effort, Libya allowed U.S. and UK chemical 
engineers complete access to the former chemical weapons production 
plant at Rabta. Libya also started destroying unfilled munitions in our 
team's presence, destroying the first two of its chemical bombs on 
January 26. The U.S./UK team carefully videotaped this destruction in 
order to permit verification by the OPCW.

                COOPERATION WITH INTERNATIONAL AGENCIES

    This first phase of the process also illustrated the cooperative 
relationship we developed with the International Atomic Energy Agency 
(IAEA). Under Secretary Bolton traveled to Vienna on January 19 to join 
his British counterpart, William Ehrman, for discussions with IAEA 
Director General Mohamed ElBaradei about how best to coordinate the 
trilateral Libya/U.S./UK elimination and verification project with the 
Agency. Their agreement formed the basis of a cooperative approach that 
has worked well on the ground in Libya.
    The IAEA sent two officials--nationals of nuclear weapons states--
to be present as U.S. and UK experts examined the weapon designs in 
Libya. These IAEA officials, with agreement of the U.S. and UK teams, 
placed the designs under IAEA seal before the U.S. and UK team flew 
them out of the country. The documents are in U.S. custody.
    IAEA officials also accompanied our U.S. and UK experts while they 
inventoried, packed, and moved nuclear-related items out of Libya. At 
the request of the IAEA, some items of centrifuge equipment and the 
centrifuge documentation were placed under seal. These items were 
segregated and stored separately upon their arrival in the United 
States.
    We have worked with the IAEA in order to help them preserve their 
own investigatory interests in acquiring a full understanding of 
Libya's handling of safeguarded nuclear material and related 
activities. Pursuant to Under Secretary Bolton's agreement in Vienna 
with Director General ElBaradei on January 19, the IAEA was invited to 
be present when the seals were broken on the Libyan nuclear weapons 
designs a couple of weeks ago here in Washington. Two IAEA officials 
attended. The IAEA will also be invited to be present when seals are 
removed on other equipment or items removed from Libya, including the 
UF6 containers and some centrifuge components.
    In addition, we have been cooperating closely with the OPCW, which 
recently sent its first Technical Secretariat (TS) delegation to begin 
working with Libya. Under the terms of the CWC, of which Libya is now a 
State Party, the OPCW Executive Secretariat will have to approve plans 
for the destruction and verification of Libyan Chemical Weapons 
stockpiles, as well as for the elimination of dual use equipment 
connected with past chemical weapons efforts. We have been working 
closely with Libya to facilitate this effort.

                              WHAT'S NEXT?

    While much has been done, it is only a start. Our teams returned to 
Libya on February 14, and we are well underway in implementing the next 
phase of our project. We have already brought out of Libya much of the 
most proliferation-sensitive nuclear items but only a small percentage 
of the nuclear equipment--by volume, at least--has been removed. Even 
as I talk with you today, for instance, our experts are working with 
Libya to inventory, pack, and soon remove a large quantity of 
additional equipment related to Libya's nuclear centrifuge program. We 
are also working to help Libya convert its Tajura reactor to LEU fuel. 
We will also help ``redirect'' Libyan WMD personnel to more productive 
ends.
    On the chemical weapons front, there remains a large stockpile of 
chemical weaponry--and a sizable stockpile of CW agent--still to be 
destroyed. As I noted, we have been assisting Libya in preparing their 
initial CWC declaration, which is due on March 6. We will be working 
closely with Libya and the OPCW to determine how best to destroy 
Libya's CW and precursor agent stockpiles. We will also investigate the 
status of Libya's past efforts regarding biological weapons. On the 
missile front, we are working with Libya to ensure that it meets the 
goal of not retaining MTCR-class missiles or the capability to produce 
them.

                                SUMMARY

    A/S Burns will describe the other aspects of our relationship with 
Libya as the elimination and verification program progresses. We should 
emphasize, however, that progress in eliminating WMD and missiles is 
the sine qua non for progress in the political realm.
    As a professional verifier and the coordinator of the U.S. 
interagency effort, it's my hope to assist and to verify Libya's 
fulfillment of its courageous and commendable commitments as rapidly as 
we can. I'm happy to say that so far, Libya's work to implement its 
December 19 commitments has been outstanding, and every indication so 
far has been that these commitments are indeed sincere.
    Colonel Gadhafi made an historic decision to bring his country into 
compliance with crucial treaties banning weapons of mass destruction. 
This was not an easy decision for him to make and he deserves credit 
for doing so. The United States, the United Kingdom, and Libya have 
worked together as a team to eliminate Libya's WMD programs and to 
normalize relations between Washington and Libya. We only hope that 
states with even more advanced nuclear weapons programs like Iran and 
North Korea will learn from Libya's example and agree to rejoin the 
community of civilized nations and give up these terrible weapons.
    Thank you for inviting me here today.

    The Chairman. Thank you very much, Secretary DeSutter. I'll 
ask that we have an 8-minute period of questioning for each 
member. We'll try to stay as closely as we can to that time 
frame so that we may all be heard. We will have time for 
additional questions later if required.
    I'll begin the questioning. Based upon President Bush's 
speech at the National Defense University, which I was 
privileged to witness and which I agree was a comprehensive 
statement, one of the comments that has been made by others--
not by the President specifically--about the negotiations that 
we are now involved in in North Korea, or with the six 
countries thinking about North Korea, is less the fact that 
North Korea might use a nuclear weapon, but rather the black 
market affairs that come with having the materials, whether 
they be plutonium stripped off of rods or missile technology or 
various things that have been marketable.
    One of the amazing things about the A.Q. Kahn story is the 
amount of merchandising over the better part of a generation, 
not just simply in the last few years. Whether we were 
observant of it or not notwithstanding, the fact is that people 
have been receiving and shipping back. I think that the 
President was making the point that the great danger in the war 
against terrorism is the fact that cells, small groups of 
people, non-nations, places with no return address, can 
appropriate this material, can take advantage of the research, 
the trades, the development, the expertise of others on the 
cheap. Maybe they can steal it successfully. Certainly our 
friends in Russia are deeply worried about Chechnyans doing 
precisely that within Russia, leaving aside the manifestations 
in the Middle East or elsewhere.
    Now, in the case of Libya, this is an extraordinary 
opportunity which you are working on, first of all in your 
effort to inventory what happened and what is there physically. 
For example, in the chemical weapons destruction situation, 
what we know is that we enter another year at Shchuchye in 
Russia in which we still have not yet constructed the facility 
that would be required for neutralization of one-seventh of the 
chemical weapons of Russia plus maybe two-sevenths more that 
may come in to the common situation. The 40,000 metric tons 
minus maybe 600 are still there after all this time.
    I hope that your own testimony, your own witness within the 
Department, within the administration, will inform the 
President, the Secretaries of Defense and State, Dr. Rice, and 
others, of how enormous this problem may be. This is expensive 
work. Congress has been appropriating money for years for this 
facility at Shchuchye, which is still nearing completion. 
Hopefully they will get there in 2005.
    The fact that you discover the material, even inventory it, 
doesn't dispose of it. By taking aircraft out to Oak Ridge, 
this does dispose of whatever you take out, such as machinery, 
plans, materials. But let me just indicate that even here we 
are stymied right now with the Russians in terms of plutonium 
destruction that they finally agreed to. In part it's their 
fault, they are not negotiating very easily. These are 
liability agreements that we need or that the other members of 
the G-7 may need. They want to help us, and life is never meant 
to be simple in this respect. The destruction of plutonium is 
very important, as is the destruction of the chemical weapons.
    The appropriation of the nuclear material is very 
important. Here we have a new problem. The uranium industry in 
the United States, the domestic uranium industry says we're not 
sure we want so much of that Russian uranium being brought to 
the United States. And we say, hang on here. In terms of 
national security, proliferation, you heard the President. We 
want to buy the material as we already negotiated, to get it 
out of Russia, to get it here maybe for world peace. If you're 
in the uranium business locally, you may say, well, it 
depresses the price of uranium in the United States. It affects 
supply and demand. We're not sure we want so much.
    These are facts of life with regard to proliferation 
dangers in the world now in terms of the most obvious stores. 
In Libya, even as you discover these things, are you attempting 
to bring about a program that is utilizing the Defense 
Department, the State Department, Energy Department, any other 
department? Would it be likely to describe a budget, a 
timeframe, to the Congress, to the public? Otherwise, we're 
going to have a situation in which we have it pretty well 
inventoried, have it pinned down. We will keep asking 
questions. Are the Libyans reliable? Is it still there? Are 
they selling it someplace? Have we destroyed it yet? Maybe 
we'll have a hearing 2, 3, 4 years down the trail with many of 
the same questions. We need not go through that exercise if the 
planning is comprehensive now.
    Let me just conclude by saying I mentioned the Nunn-Lugar 
business to begin with simply as a case in point, not as the 
definitive way to destroy it. But after arduous work, members 
of this committee were very helpful in saying, finally our 
government can actually utilize Nunn-Lugar money outside of 
Russia. Thank goodness, a no-brainer. And yet, were it not for 
a lot of opposition, it would have happened a long time ago. 
This is hard for me to understand, but nevertheless these 
things occur in political life.
    Fifty million dollars could now be spent, and here Libya 
comes along and we say, why haven't you used it? Well, hang on 
there. You've got sanctions, and if you have any sanctions you 
can't use Nunn-Lugar money there. Well, our feeling is we 
better lift those sanctions. In other words, we may be forced 
to sit there and to say $50 million unavailable, a very small 
State Department fund is all we can do, partly because we don't 
have the gumption simply to get rid of whatever the sanctions 
are so that money can be used. This defies common sense.
    Now, you're working at it hard, I know. I raise this 
question publicly because it's a serious question. Even after 
we get into some degree of flexibility with money, it doesn't 
necessarily flow. Ditto for the training of the Libyan 
scientists, who sort of like the iteration of the Russian ISTC 
program, International Science and Technology, which may want 
to be converted to doing better things than weapons of mass 
destruction.
    Can you give me any confidence level that these are 
considerations you have as planners? If you can't give me a 
confidence level, how are you proceeding so that there will be 
a framework to talk about?
    Ms. DeSutter. Thank you, Senator. One of the things that's 
probably worth saying out loud is that Colonel Qadhafi's 
statement was made on December 19, we are here in the last week 
of February, and we have done a remarkable amount of work, 
working around the sanctions for the most part.
    It has been the best case for a verifier. There are many 
cases that we deal with as verifiers that are not best case. 
This one is. Why? It is because there was a strategic 
commitment that that country has been in the lead in working 
on. Our British counterparts are probably going to be taking 
the lead on part of the redirection effort, but we will be 
right there with them. We are proceeding at pace with all of 
that.
    Now, while we have been using the NDF money more than any 
other funds, that is certainly true, it is also true that I am 
pretty aggressive in trying to figure out how to spend whatever 
pots of money I can get my hands into, and we're taking a look, 
especially as some of the equipment has come back here, can 
that equipment be eliminated here.
    With regard to chemical weapons and the elimination, we are 
working very closely with the Libyans and also with the OPCW 
because one of the things is the way the CWC was constructed, 
it was to give a strong incentive for countries to enter in 
early. Conversion, all of that gets a little bit harder. We're 
trying to work through that. We're going to work as hard as we 
can to support them as we have bilaterally with other countries 
in setting up destruction agreements and to help them any way 
we can.
    So we are mindful of all of those, we are--the first phases 
of this have been primarily what I call elimination by removal, 
but we are looking down the road to the rest of this. This will 
not, I think, be something, with the exception of, and we have 
told the Libyans that we'd like to work out some way with them 
to have some ongoing relationship along these lines, just to 
make sure that everybody is comfortable with the level of 
transparency.
    The OPCW, they will be full parties, they are now full 
parties of the CWC, and we expect the CWC process to be moving 
forward, as well as their relationship with the IAEA. They have 
said that they will proceed as if the additional protocol is in 
force for them, and that they intend to become parties to the 
additional protocol. All those pieces should be moving forward.
    The Chairman. Well, thank you very much. I point out, as 
you know, that even after countries ratify the Chemical Weapons 
Convention, the CWC, which we did here in the Senate, and which 
the Duma did in Russia, actually getting the job done is 
another story. You know the treaty stipulates that we destroy 
all of this in 10 years. There's not a ghost of a chance that 
that will happen in twice that amount of time, I think, in 
Russia. This despite the fact that both sides entered into the 
treaty with goodwill. There's money and the need for technical 
expertise, for contractors, for all the rest.
    Now, maybe other countries, they're not precluded from 
helping us in this. I am glad that you mention that you're 
looking at other destruction possibilities. They need not all 
be ours. In the absence of that, the alternative was a tough 
one. We'll face this with the North Koreans if in fact they 
agree to give up whatever they have. Who physically will 
destroy it? Who will get the job done? You can have one treaty 
after another and circumscribe it in 15 different ways. I'm 
just trying to get to the nitty-gritty of who actually destroys 
it, removes it, eliminates it, because the answer to that will 
ultimately tell us whether we are serious about worldwide non-
proliferation.
    Ms. DeSutter. Senator, just very quickly I will say that 
before we left, when we had our first mission in, the Libyans 
did sort of a practice destruction and destroyed two of their 
unfilled chemical munitions.
    The Chairman. Good.
    Ms. DeSutter. And have agreed, and there's a process I 
think that very, very soon the rest of those munitions are 
going to be destroyed rapidly. I'm about as skeptical as people 
get and what we've seen is on the ground it's really working, 
they're really doing this, they are really fulfilling their 
commitment.
    The Chairman. Thank you. Senator Biden.
    Senator Biden. Mr. Chairman, you are so boringly logical. 
You are an anachronism in this place. Your logic is so 
compelling it's amazing how it's consistently ignored. You 
know, there was a movie years ago, ``Cool Hand Luke,'' about a 
chain gang, and there was a guy named Paul Newman in the movie 
and he was in the chain gang, and the boss man who was running 
the chain gang said, ``what we've got here is failure to 
communicate.'' We have got ourselves--not the two of you, just 
generically--a failure to communicate.
    The administration witnesses use the words, we'll try to 
help them. We ain't helping them. It's helping us if we destroy 
Russia's chemical weapons. It ain't helping them if we destroy 
the weapons in Libya. It is helping us.
    I think, and I'm not being facetious, I think that is the 
central dilemma. We keep talking about spending Nunn-Lugar 
moneys or any other moneys as if we're doing other countries a 
favor, and the countries that have these weapons are countries 
that, as they say in southern Delaware, ain't got no money. 
Russia, with its entire defense budget, is less than $11 
billion. They ain't got no money to destroy the weapons to help 
them. We need a lobotomy here. We need a mind set in this place 
and we need a mind set in this town.
    And I have a question I don't expect you to answer because 
I'm not being facetious, it's above both your pay grade and 
mine, but I'm going to formally ask the question to be 
transmitted back to your superiors. Would the administration be 
willing to amend Nunn-Lugar to eliminate the prohibition if 
there's sanctions in existence to be able to spend the money? 
We act like disarming WMD is a favor for somebody else, and I 
find this mind-boggling.
    And by the way, it's not just the administration. We have 
some of our guys and women here in the Senate who when the 
distinguished chairman brings up these points, talks about 
fungible money, fungible funny money, if we go ahead and spend 
our money to destroy--what is it, close to 2 million chemical 
tipped artillery shells. If we spend our money to build a 
facility to render them useless, drill little holes in the 
bottom, take out the offending material, crush the canisters, 
dilute the material, that means they'll have money to spend on 
other bad things. Give me a break.
    I can't fathom what is more threatening to the United 
States of America than all these chemical stockpiles, weapons, 
and the like. And I'm going to get in trouble with the chairman 
here, but the President asked us to come down and talk to him 
about pursuing, which we did, in good faith the Moscow treaty. 
And the chairman made a very simple point. If we meet the goal 
of the Moscow treaty that in 10 years with no benchmarks we're 
going to get down to a certain number, it's going to cost 
billions of dollars to get down to that number. They don't have 
the billions of dollars and we don't seem to have the 
inclination to find the billions of dollars to go destroy the 
weapons that they may be willing to destroy.
    Again, not a criticism of either one of you, but I think 
it's important for the public that listens to this discussion 
to understand that there's not only the chairman is committed 
to the logic of his argument, there's others of us are too. And 
I really think the President should think about, with all due 
respect, coming up with an agreement whereby we could amend 
Nunn-Lugar, that he would support with the political capital he 
has in this place now end this mindless debate about whether 
we're helping them or helping us, like this is a zero sum game. 
And I'm not picking on you, Madam Secretary, because I wasn't 
suggesting you didn't think it helps us as well.
    And all the reporters out there, I want to remind them, 
when we send folks to go destroy those bad things that could be 
used against us by terrorists or anyone else, we pay American 
contractors to go do it. We don't write a check to the Russian 
Government, here, go destroy the weapons. We hire Americans. 
Americans go do this by and large. So it's not like we're even 
giving them the money.
    So I really hope we can start to think about this, because 
the degree to which, Madam Secretary, you are successful, and 
you have been very successful here, the irony of all ironies 
is, the more successful you are, in a bizarre way, the worse 
off we may be, in the sense--that's an exaggeration--that you 
still got to destroy this stuff at the end of the day.
    I want to ask Secretary Burns a question if I may in the 
minute or so I probably have remaining, if it's that long. Did 
the seizure of the shipment of the centrifuge parts play a part 
in Tripoli's decision to finally come clean with the U.S. and 
the U.K. inspectors to view multiple sites? I know this is 
dangerous psychoanalyzing what the heck made Qadhafi do what he 
did and so on--but I mean, how do you guys calculate, because 
it's important to figure out whether or not there's lesson from 
this that apply to others.
    For example, Flynt Leverett, former Senior Director of the 
National Security Council and member of the State Department 
planning staff, wrote in the January 23 New York Times that 
Libya began to seek improved relations with the United States 
all the way back in 2001 and was told to settle the Lockerbie 
case first.
    Leverett goes on to say in that article, he says, ``this is 
the context in which Libyan officials approached the United 
States and Britain last spring to discuss the dismantling 
Libya's weapons program. The Iraq war, which had not yet 
started, was not the driving force behind Libya's move. Rather, 
Libya was willing to deal because of credible diplomatic 
representations by the United States over the years, which 
convinced the Libyans that doing so was critical to achieving 
their strategic and domestic goals, just as with Lockerbie an 
explicit quid pro quo was offered.
    ``American officials indicated the verifiable dismantling 
of Libya's weapons project would lead to removal of our 
sanctions perhaps by the end of the year. The lesson is 
incontrovertible. To persuade a rogue regime to get out of the 
terrorism business and give us the weapons of mass destruction, 
we must not only pressure but we must also make clear the 
potential benefits.''
    Is that a fair analysis in your view? Again, I'm trying to 
figure out what got them there and whether or not it's 
applicable to other places we know we have to go, and that's my 
question. Thank you.
    Mr. Burns. Thanks, Senator Biden. I think as Senator Lugar 
suggested before, there are a range of factors that entered 
into the thinking of the Libyan leadership and Colonel Qadhafi, 
and they date back several years.
    In answer to your first question, I think it's true that 
the interdiction of that vessel was one of those factors. I 
think the President's resolve, particularly since September 11, 
and the resolve shown not just by the administration but by the 
Congress and the American people is another important factor.
    I think the fact that sanctions which were begun in the 
first Bush administration, sustained through the Clinton 
administration, also began to drive home to Libyan leadership 
that its isolation was setting it further and further back 
economically, socially, and many other ways.
    I think the fact that during the course of the Lockerbie 
negotiations, which I was involved in the last 3 years, but 
which date back several years before that, we were very dogged 
in insisting that there are no short cuts here and that you had 
to meet the four security council obligations.
    I think all of those factors combined helped to bring the 
Libyan leadership to the point that it recognized that the best 
choice for Libya was to take the direction that it took in the 
Lockerbie settlement, which was formalized last September, and 
then in the announcement on the 19th of December.
    Senator Biden. Along the way, were there explicit carrots 
offered as well? If you do this, then this will happen?
    Mr. Burns. Well, with regard to the Lockerbie negotiations, 
we were very clear in saying that, again, there were no short 
cuts, you had to meet those four obligations laid out in 
Security Council resolutions, and in return for that there'd be 
first suspension, then lifting of the Security Council 
sanctions. We made equally clear during that time that that was 
not a free ticket for admission to--and bilateral sanctions--we 
made very clear on the margins of the Lockerbie negotiations 
that weapons of mass destruction were a very big concern for 
the United States and would be a very big obstacle in the path 
of moving ahead to ease those bilateral sanctions.
    Senator Biden. Bilateral sanctions?
    Mr. Burns. Yes, sir. And so we wanted to be clear that this 
was going to be a step-by-step process in which positive Libyan 
steps would be reciprocated by the United States, and again, 
there were no short cuts, and that was the same philosophy in 
Lockerbie as with regard to WMD.
    Senator Biden. Both be complimented. Thank you.
    The Chairman. Thank you very much, Senator Biden.
    Senator Chafee.
    Senator Chafee. Well, thank you, Mr. Chairman. I commend 
you on everything you're doing in the relationship with Libya, 
making great progress. Libya does have proven reserves of 440 
billion barrels of oil and the quality of its oil and the low 
cost of its production are some of the best in the world. In 
fact, in 2003, a survey by an oil research company, Robertson 
Research, rated Libya the best oil and gas prospect in the 
Middle East and the second best in the world.
    And how would you respond to the criticism that there's a 
double standard because of this dynamic and how we deal with 
North Korea, for instance, and Libya? I'll ask Secretary Burns.
    Mr. Burns. Well, Senator, I can really only address the 
Libya portion of this since blessedly North Korea falls outside 
my area of responsibility. On Libya, clearly this is a country 
that has enormous potential wealth. It's been mismanaged 
economically. One of the things that's most encouraging about 
the choice made recently by Libyans is there also seems to be 
an interest in economic modernization, opening up the economy.
    If the Libyans continue to perform on their obligations, 
we've made clear that we're prepared to continue to move ahead 
toward easing and ultimately lifting the range of our 
sanctions. That will open up opportunities for American 
companies, but I think more broadly it'll open opportunities 
for the Libyan people to begin to take advantage of that wealth 
and open up opportunities for themselves, and I think that 
ultimately creates the best kind of lesson or example for 
others around the world.
    Senator Chafee. Do you think you could take the experience 
that you've had with Libya and see it translated somewhat to 
North Korea, although, as you say, that's out of your 
jurisdiction?
    Ms. DeSutter. Senator Chafee, let me take a try at it.
    Senator Chafee. OK.
    Ms. DeSutter. One of the things that we've seen in Libya is 
a genuine--and the reason I say it's genuine is that we've seen 
proof on the ground, we're seeing proof in the elimination--a 
genuine strategic decision to walk away from the WMD world. 
They've walked away from those programs lock, stock, and 
barrel. I am convinced of that, Senator Lugar----
    Senator Chafee. If I could just interrupt for a second. I 
know we use the term WMD all the time. Is there a definition of 
that term?
    Ms. DeSutter. In this case it is contained in Colonel 
Qadhafi's statement of December 19 as then subsequently 
reflected in agreement papers that we have with the Libyans. It 
includes--they have said that they did not have an offensive 
biological weapons program, although they had done some work 
early on, that they had conducted, that they had pursued a 
nuclear weapons program, that they were pursuing this and they 
were pursuing it rather aggressively.
    They had a chemical weapons program that was offensive in 
nature. We're seeing that being eliminated and----
    Senator Chafee. If I could, I'll just interrupt one more 
time. To use the example of Timothy McVeigh, I believe he used 
a truckload of fertilizer to kill 150-odd people, so the 
definition of weapons of mass destruction as you negotiate, is 
there a clear, internationally defined definition of that term?
    Ms. DeSutter. What they had in, for example, the chemical 
weapons program was that they had large stockpiles of sulfur 
mustard. They were working on a nerve agent program. They were 
working on a binary program. They had aerial munitions that 
they had worked to fill. I may have brought one with me, one of 
the bottles that they gave us that we're going to constitute 
those. There is no question this was an offensive chemical 
weapons program.
    They had nuclear weapons design documents that they hadn't, 
as near as we can tell, built any nuclear weapons, but they had 
a program that was designed to give them the material in order 
to enable down the road a nuclear weapons program.
    Make no mistake. What Libya has agreed to eliminate, what 
they are eliminating right now really was in the classic sense 
a weapons of mass destruction and their agreement to undertake 
the elimination of that program is very, very significant for 
everyone. One of the points that I would make in response also 
to Senator Biden's question is that the reason we say that we 
are helping the Libyans to destroy, along with our U.K. 
partners, the Libyan program is not because we believe that it 
is not in our interests. It is because what we are assisting in 
is their fulfillment of a commitment that they made 
unilaterally.
    Yes, there was a dialog with the U.S. and the U.K. Libya is 
the one that made that decision, Libya is the one that is 
eliminating it. To contrast that with North Korea, North Korea 
has not made a strategic commitment to give up its nuclear 
weapons program, neither in my view has Iran. Those are 
significant differences in terms of our ability to achieve the 
kind of relations that Assistant Secretary Burns has indicated 
we are trying to move forward with in Libya.
    These are significant differences. We hope that the Libya 
process, that the Libya decision will serve as a guiding 
principle and a model for other WMD countries to move forward 
to be able to have the kind of relationship with the United 
States that we would be happy to have with those countries. 
Weapons of mass destruction is a clear impediment to being an 
operating member of the international community, as well it 
should be.
    Senator Chafee. Well, thank you very much. My only comment 
would be, yes, negotiations don't start with them. I would 
suspect with unilaterally agreeing just to abandon the weapons 
of mass destruction program, it's a series of meetings, it's a 
serious of negotiations, and to me I don't see that happening 
in North Korea. But that's all the questions I have.
    Ms. DeSutter. I would just note that Assistant Secretary 
Kelly is meeting with North Korea as part of the six party 
talks as we speak.
    The Chairman. Thank you very much, Senator Chafee. Senator 
Nelson. All right, I'm going to defer to Senator Feingold. 
Senator Feingold. Senator Nelson?
    Senator Nelson. Thank you, thank you, Mr. Chairman. I'm 
curious. After the Six-Day War, Libya's significant and ancient 
Jewish community numbered 40,000 and they were expelled and 
virtually all of their assets were confiscated by Libyan 
authorities. So as we begin this new relationship with Libya, 
it would be appropriate to address issues of compensation and 
restitution for this community. Tell me what you have been 
thinking about on this issue and what plans do you have to 
raise this issue with the Libyans?
    Mr. Burns. Senator Nelson, thanks for raising the issue. 
Our focus up until this point has been very much on ensuring 
that the Libyans follow through on their terrorism and WMD 
commitments and then beginning to look at ways in which we can 
ease our own sanctions to offer some positive reinforcement for 
that. I'd be glad to look into the issue that you raised and 
get back to you with a clear answer.
    [The following response was subsequently received.]

    As much as three-quarters of Libya's 40,000 Jews emigrated to 
Israel in the years immediately after its founding. The violence 
sparked by the Six-Day War in 1967 prompted all but a few hundred of 
Libya's remaining 7,000 Jews to flee. Those who remained to witness 
Colonel Qadhafi's 1969 revolution saw Jewish communal and personal 
properties confiscated and the cancellation of all debts owed to Jews.
    We are in the beginning stages of a political dialogue with the 
Government of Libya. Our bilateral talks touched upon this issue while 
I was in Tripoli and I encouraged efforts to reach a settlement. We 
have been in contact with the American Libyan Jewry Association and are 
aware of their efforts to pursue compensation.
    The U.S. supports the general principle of compensation for 
property confiscated by the state, particularly because it promotes the 
rule of law, respect for property rights, and tolerance of minorities. 
As we have learned from our experience in Eastern Europe and the Former 
Soviet Union, issues of compensation and restitution present many 
complicated concerns. There is a delicate balance that must be struck 
between the interests of the original property holders and current 
owners and occupants of confiscated properties. Documenting original 
ownership is also frequently difficult. In addition, while we can urge 
settlement of claims in principle, there are limitations on the types 
of individual cases that we can formally present to Libya.

    Senator Nelson. We do it with other countries, so clearly 
we ought to. And somewhere in the course of your comments, I'd 
love to hear how you think that the Iraq war might have, from 
your perspective, influenced Qadhafi in his decisionmaking.
    Mr. Burns. Senator Nelson, I think all I would say is that 
it's very difficult again to sort of understand the thought 
process that produced the historic decision that was announced 
on the 19th of December, and that for that matter also produced 
the decision to essentially move out of the terrorism business 
and reach the Lockerbie settlement.
    As I said before, I think there are a variety of factors 
that came into play. I do believe that President Bush's 
resolve, the resolve of the United States as a whole with 
regard to Iraq as well as with regard to the broader war on 
terrorism was one of those very important factors in shaping 
the decisions that were made. I think we have an interest now 
in helping to demonstrate that those were the right choices and 
to help show the Libyan people through some of the steps that 
were announced by the White House today and hopefully steps 
that we can take in the future, assuming Libyan performance 
continues, that this is enormously beneficial to the Libyan 
people. It opens up opportunities for them that the pursuit of 
terrorism and weapons of mass destruction essentially denied 
them.
    The Chairman. Thank you very much, Senator Nelson. Senator 
Feingold.
    Senator Feingold. Thanks, Mr. Chairman. Thanks to both of 
you for your testimony. Secretary DeSutter, have we uncovered 
any information indicating that Libya sought to share 
technology relating to weapons of mass destruction with other 
states or actors? Is there anything that you can tell me about 
this in this forum?
    Ms. DeSutter. Senator, we have not gotten any evidence to 
that effect to date. One of the things that is certainly true 
is that we are certainly learning more as we go on the ground 
and we will begin putting a little bit more emphasis on having 
additional dialog with them. For the first 2 months, our 
emphasis has been on removing things. We'll try to understand 
better. But thus far I can say that we have not seen such 
evidence.
    Senator Feingold. Thank you. Secretary Burns?
    Ms. DeSutter. But--I'm sorry.
    Senator Feingold. Excuse me. Go right ahead.
    Ms. DeSutter. I would just add that a part of why our 
emphasis has been on the elimination aspect of this has been 
precisely because while we believe the commitment is real, 
while we know that the Libyans have made this decision, we want 
to preclude that. That's why we took out the most 
proliferation-sensitive items early on.
    Senator Feingold. I thank you for that. Secretary Burns, 
how stable is Libya internally in your view and who is the most 
plausible successor to Qadhafi at this point?
    Mr. Burns. On the succession issue, I don't at this point 
have a clear answer to offer you. It's a political system that 
has had its share of stresses and strains. I think there's a 
recognition on the part of the Libyan leadership, and Colonel 
Qadhafi in particular, that economic modernization beginning to 
sort of shift direction in terms of how the economy is managed 
and we hope over time in how the political system is managed in 
terms of respect for human rights and other issues is a 
direction that's going to serve the best interests not only of 
the Libyan people but of stability in Libya, because I think 
throughout the Middle East you see the reality that stability 
is not a static phenomenon. If societies don't adapt and get 
out ahead of the pressures, whether they're demographic or 
economic or other ones, they tend to stagnate, fall further and 
further behind.
    And so I hope that the decisions that the Libyan leadership 
has made with regard to terrorism, with regard to weapons of 
mass destruction are a part of a broader process in which the 
economy is modernized, in which there is a greater 
institutionalization and respect for human rights in which 
Libya's behavior in Africa and elsewhere around the globe 
begins to turn in a direction which we would view as more 
constructive, and I know that's been a concern of yours over 
the years. And that is also something that's an important part 
of our dialog with the Libyans, because a more normal 
relationship with the United States is going to rest on 
tangible progress in the areas of terrorism and WMD, but those 
other factors are also going to be important as well.
    Senator Feingold. I'm glad you mentioned the human rights 
issue, because Libya's record is dismal, and you seem to have 
just indicated that human rights are already an important part 
of our discussion. In the just released human rights report, 
the State Department refers to torture, arbitrary arrest and 
detention, political prisoners, and government restrictions on 
freedom of speech, the press, assembly, association, and 
religion.
    So you're saying that you're already heavily engaged in 
these conversations with the Libyans?
    Mr. Burns. Yes, sir. As the most recent human rights report 
that the State Department issued yesterday makes clear, Libya's 
performance, its record on human rights is poor, just as you 
said. We will continue to raise this issue and make clear that 
in the interests of a truly healthy relationship with the 
United States--but, again, more importantly than that, the kind 
of Libyan society that's going to benefit its people, those 
issues need to be addressed.
    As one example, we raised in my last conversations in 
London the value of allowing representatives of international 
human rights organizations like Amnesty International to travel 
to Libya. After those meetings in London, the Libyans did allow 
two representatives of Amnesty to come and observe a trial in 
Libya, and I think that's a positive step. And we are going to 
continue to try and reinforce some of the comments from members 
of the Libyan leadership who have talked publicly, for example, 
about the value of looking at prison conditions, of allowing 
access for the ICRC, and those are the kind of things that we 
want to reinforce, again in the interests of a healthier 
relationship with the United States.
    Senator Feingold. I thank you for that. Does any budget 
transparency exist in Libya? Do Libyans have any idea how much 
the government gains in oil revenue annually, and does anyone 
have a sense of how those revenues are then spent? Does the 
administration plan to meaningfully address transparency issues 
before opening the flood gates to new investment in the oil 
sector?
    Mr. Burns. Well, I think, Senator, one thing that's been 
encouraging, if you look at the debate within Libya over the 
course of the last year or so, have been the number of Libyan 
voices who have been talking about modernizing and opening up 
the economy, precisely for the reasons you described, Libyans 
who recognize that this isn't a favor to the United States or 
the international community. It's in their self-interest to 
take those kind of steps, and we will certainly do all we can 
to encourage that as we continue to continue our dialog with 
the Libyans.
    Senator Feingold. This may, like North Korea, be out of 
your area, but I think it's very important, and that's the 
nature of Libya's current involvement in certain African 
countries. To the extent you can, describe the nature of 
Libya's current involvement in Zimbabwe.
    Mr. Burns. Generally, Senator, as you well know, Libya's 
behavior has created significant problems for us in Africa over 
the years. Now, there have been indications, both in what the 
Libyan leadership has said publicly and in what they have 
indicated in private discussions that they are interested in 
playing a more constructive role in Africa. That's something 
obviously that has to be seen, not just promised, but it's 
obviously something that we want to encourage, because it is 
possible that Libya could play a more constructive role in 
Africa than it has to date.
    There have been problems, as you suggested, in Zimbabwe. 
There have been problems in Liberia and elsewhere.
    Senator Feingold. As far as you know, the less than helpful 
involvement in Zimbabwe by Libya still continues?
    Mr. Burns. I can get back to you with a clearer answer on 
that, but I think we still have concerns about Libya's 
behavior----
    Senator Feingold. Central African Republic?
    Mr. Burns. Again, I think we continue to have concerns 
there. As I said, the Libyans are about to host in the next 
couple of days an extraordinary summit of the African Union, 
and part of their rationale for doing that is to try and play a 
more constructive role by contrast to their behavior in the 
past.
    So, again, we'll see it when it happens, but we will 
continue to try and encourage that.
    Senator Feingold. Well, instead of keeping--asking you 
these, I'll just ask for you to get me what you can on 
Zimbabwe, Central African Republic, whether Libya retains any 
investments made in Liberia under the Taylor regime, and also 
to be sure that these are pursued aggressively.
    Mr. Burns. Sure, I'd be glad to, Senator.
    [The following response was subsequently received.]

    As an active member of the African Union, Libya should play a 
constructive role in promoting peace and prosperity in the region. For 
the past three decades, Libya has funded and supported various 
revolutionary insurgencies and anti-Western regimes throughout the 
African Continent. Libya has sought a leadership role in Africa, 
typically through lofty, but impractical Pan-African initiatives.
    On February 6, Assistant Secretary of State for Near Eastern 
Affairs William Burns began a political dialogue with Libyan officials 
on a broad range of issues, including Libya's foreign policy in Africa. 
As our bilateral relations deepen, this issue will remain an important 
part of the U.S.-Libya agenda.
Central African Republic
    A coup in March of 2003 in the Central African Republic (CAR) ended 
the reign of former President Patasse, a long-standing ally of the 
Qadhafi regime. Although Qadhafi had previously supported the CAR 
leader, both economically and militarily, he stood clear of any 
military involvement during the uprising that removed Patasse from 
power and led to the installment of General Francois Bozize.
    Qadhafi has recognized the change of regime in the CAR and 
attempted to reestablish bilateral relations between Libya and the CAR, 
as indicated by a meeting between Qadhafi and Bozize in Chad on July 7, 
2003.
Liberia (Taylor)
    The training and assistance that Qadhafi provided to Charles Taylor 
has been a point of concern since the early 1990s when Taylor came to 
power. As Taylor lost his grip on power in August 2003, Qadhafi refused 
to provide Taylor and his associates asylum.
    To our knowledge the only substantial financial interest that Libya 
maintains in Liberia is real estate. The UN Mission in Liberia is 
considering using one of these facilities as their headquarters.
Zimbabwe
    Relations between Zimbabwe and Libya are historically close, with 
Libya supporting Zimbabwe's independence struggle and each country's 
condemning sanctions imposed on the other. Relations are currently 
somewhat strained by the collapse of a barter deal under which Libya 
was providing seventy percent of its fuel needs in exchange for a range 
of Zimbabwean banking, mining, fuel infrastructure, real estate, and 
agricultural assets. The deal collapsed in early 2003 due to disputes 
over the values of assets and Zimbabwean failure to hand over assets it 
deemed strategic. Attempts to revive the deal in mid-2003 failed and it 
appears that Libyan fuel shipments to Zimbabwe have largely ceased. 
Libya still seeks to build its influence in Zimbabwe, however, and 
reportedly donated 6,000 metric tons of grain in December 2003.

    Senator Feingold. Finally, I just want to say, I want to be 
clear that I certainly agree with my colleagues that we, as 
many of you have said, that we should not wait to move forward 
on destroying Libya's WMD even in the absence of progress on 
some of the other issues that I've been raising. I just want to 
be clear about that. Thank you very much, Mr. Chairman.
    The Chairman. Thank you very much, Senator Feingold. Let me 
just pick up on Senator Feingold's final comment. We all have 
been very aggressive today, as you could tell, about getting on 
with this, but so have you been, Secretary DeSutter. You point 
out that in a very short period of time 55,000 pounds of a lot 
of stuff went out to Oak Ridge. It's there now, and that's 
precisely the sort of action that this committee would want to 
see, as opposed to a long wind-up, endless negotiations, 
finding reasons why you couldn't do it, and so forth. You did 
it. The window of history opened and it might not stay open 
very long.
    Now, that's, I think, the point we're making now. On the 
other hand, it could stay open for a long while if American 
diplomacy works, quite apart from our effectiveness and 
proliferation. I think that the questions that Senator Feingold 
raised were important in that respect because many of us are 
curious about what the relationships still are with people in 
Libya. We do not know that much about their political system, 
about leading figures beyond Mr. Qadhafi and others.
    In other words, are there ideologues in Libya? Even if 
President Qadhafi comes to a point and says, listen, we have an 
opportunity to enlist oil companies throughout the world, to 
make investments here, to bring wealth to our country, we still 
will have extraordinary opportunities to engage in constructive 
ways. Yet suddenly down in the weeds there are other Libyans 
who have been playing a different game for a while. They're 
still fooling around in Zimbabwe or wherever else, because this 
is what they've always done. They've been operatives who 
thought ideologically something ought to happen in that way.
    As to the issue of control, now that we're dealing with the 
government, is the government effective? Does it have control, 
or is it a set of diverse minds? Has a consensus of the future 
course of the country come about? Do you have any feel for 
this, or is it too early to tell?
    Ms. DeSutter. Senator, one of the things that I would say 
is I think it's just that thought process that led Secretary 
Powell to refer to this on a number of occasions as a 
verification process. What we've seen thus far has been 
tremendous, but we are not going to move only so far and not 
try to understand the full picture. Thus far, what I can say, 
as openings take place, as the dialog continues, we will 
continue to learn more that will increase our confidence over 
time, but we are continuing to do that. Thus far, the record 
that we have seen has been absolutely amazing.
    The Chairman. On that basis the President made his 
announcement today of the lifting of these five sanctions. Is 
this simply because we are optimistic that there's a lot going 
on there that ought to be encouraged?
    Mr. Burns. Yes, sir. Mr. Chairman, I think that's exactly 
right. I think what's been demonstrated so far with regard to 
the issues of terrorism and WMD is an ability thus far for the 
regime to follow through on commitments it's made, so that 
level of control seems clear.
    It also seems clear, as you suggested, that it's important, 
and the President made this clear in his own announcement on 
December 19, that as Libya takes these steps, it's important 
for the Libyan people, for the people involved in the sort of 
debate that you described to see that benefits can result from 
making the right choices.
    That's why we've tried even in this first set of 
announcements that the White House made today to look for a 
couple of symbolic but I think very useful steps. For example, 
sending a team of U.S. experts to Libya to look at ways in 
which we could help in the health care system, look at ways in 
which we could help Libyans deal with infectious diseases like 
trachoma. And that is an indication on our part both of the 
value of showing that these are the right choices, but also 
ways in which we can help realize those possibilities.
    The Chairman. And there are Americans on the ground dealing 
with these health problems, as well as other situations that 
are going to be observed by Libyans?
    Mr. Burns. Yes, sir. There's a team that's leaving in a 
couple of days that'll be there for some time and have a chance 
to travel around the country and then offer our best advice and 
our assessment of steps that could be taken to benefit Libyans.
    The Chairman. Let me then pursue this question. The summit 
conference of other nations that you described is coming to 
Libya. Now, if I were a Libyan statesman at this point, this 
would require some very sophisticated reasoning as to what sort 
of presentation we're going to make. For example, Libyans may 
say a new day has come to Libya and a new day could come for 
you. In essence, we've worked out an accommodation with the 
United States, with Great Britain, with others, and as a 
result, we're headed off to a bright new future.
    Now, my guess is that a good number of the states come to 
visit with them are still of a mind that the future's pretty 
dark. Their relations with us, that is, the United States, are 
not all so good. Some are better than others. Having cheerful 
Libyans telling them that Americans might be good people, that 
they might be worth dealing with may not settle well right off 
the bat. We're talking about the Libyans changing their mind 
set. They're about to deal with a whole group of people who 
have mind sets, and in one conference day or two they may not 
be able to change their minds. Still, this is sort of an 
important juncture.
    In terms of our diplomacy, what, if anything, are we doing 
to inform all of the parties who are coming to that meeting of 
what we perceive to be the facts on the ground? In other words, 
what are we doing so that the discussion that occurs among 
these sovereign nations occurs with as much factual background 
in the new developments as possible? The news may not always 
have spread accurately, given the press in various countries, 
or the dissemination of information. Here, it seems to me, we 
have a remarkable opportunity for public diplomacy in a very 
concentrated way in a concentrated meeting.
    Undoubtedly you have worked through that. Can you describe, 
or give any confidence level as to what we might do to 
influence the meeting?
    Mr. Burns. Well, Senator, with regard to that meeting as 
well as generally our contacts with Libya's neighbors, we've 
tried to be very clear and transparent in highlighting not only 
the steps that the Libyan leadership is taking on terrorism and 
WMD, but also the kinds of things that we're doing in return. 
The President has set the tone for that in his own public 
comments. Today's White House announcement is a first tangible 
step in that direction. I'll meet with the Libyans again next 
month to begin looking at the next phase of steps that we might 
take in return for steps that they're taking on the ground.
    So I think the results that we're looking for are a process 
in which they've followed through on their obligations and 
we've also followed through on the President's statement that 
the sorts of commitments that Libya has made as they're 
followed through open up a real path to better relations with 
the United States, and hopefully that will have an impact on 
the calculations of other countries in the region.
    There's no one-size-fits-all solution, but I think it's a 
very important opportunity for the United States to show that 
this path can be a successful one, not just for us, but for 
Libyans and potentially for others in the region and around the 
world.
    The Chairman. The reason I stress this is that for the 
better part of 15 years more or less, the world rejoiced that 
countries, whether it was Brazil or South Africa, came to a 
conclusion that pursuing a course of weapons of mass 
destruction was not going to be best for their destiny. They 
came to these judgments and they got out of the business.
    Suddenly we have a terrible reverse. India tests, and right 
following that Pakistan tests, and then what seemed to be a 
remarkable course of history took another turn that was very 
sad. With Libya we have the possibility that history won't go 
in a straight line. We once again head back into better 
territory, but only if other countries come to a conclusion 
that Libya is right, all things considered, and that in this 
particular world right now as things stand, going into the 
subterfuge of weapons of mass destruction programs as they were 
doing not only wastes resources, it's disastrous for the 
economy and for the living standard of the people. It is bound 
to be a loser vis-a-vis the United States and other nations 
that are less and less tolerant of even the potential of 
proliferation, quite apart from the country, supposedly in 
terms of self-defense, having such weapons.
    This is why this meeting they're about to have is not the 
be-all and end-all. It's going to be the beginning of several 
meetings in which countries come to some conclusions about 
their destinies, and maybe advise others. We don't know yet all 
of the trades--quite apart from A.Q. Kahn--but of the North 
Koreans or of everybody else, but we're going to find out a 
great deal. It's all sort of spilling out of the cupboard at 
this point.
    The question is whether the momentum of that leads us to 
truly winding up this situation, or getting our arms around it, 
so that there's a very definite change in the quality of 
security. I'm optimistic, as you must be, too. We have to be 
optimistic in terms of the future of this country and our 
security, quite apart from that of other countries. These are 
crucial moments to take the right steps decisively and 
confidently. Those include diplomacy and public diplomacy, as 
well as the physical steps of jerking this stuff out and taking 
it to Oak Ridge or wherever we can take it.
    Let me ask Senator Chafee, do you have another question?
    Senator Chafee. Yes. Just quickly, just following up on 
what you're saying, Mr. Chairman, is, as Senator Biden said, 
jaw jaw jaw is better than war war war, and I hope that in 
North Korea, as you said, the Secretary said, that Secretary 
Kelly is there now, and previous meetings have kind of 
disintegrated, but I hope they'll continue to jaw jaw jaw and 
maybe you'll have the same progress we're seeing here in Libya.
    I do have a question for Secretary Burns. What's the 
administration's position on congressional visits to Tripoli 
and Libya?
    Mr. Burns. I think to date, Senator, there have been three 
and there's a fourth in the offing now. I think they've had a 
very constructive effect. I think the opportunity for Libyans, 
both in the leadership and outside of government, to see 
Americans, to see representatives of the legislative branch as 
well as the executive to the opportunity to reinforce the broad 
message that this is the right choice for Libya and for the 
future of U.S.-Libyan relations, to hear that from Members of 
Congress as well as from those of us in the administration is a 
very constructive thing.
    So the short answer to your question is that we'll continue 
to encourage it and look forward to working with you to help in 
both the arrangements and to offer whatever analysis we can.
    Senator Chafee. Thank you.
    The Chairman. Thank you, Senator Chafee. I have just two 
more questions. One is, leaping ahead even further, there is a 
certain degree of privatization in the economy of Libya. I'm 
unaware of how you would describe this percentage-wise, but at 
least the concept is there. At what point is it likely to take 
hold to the extent that people will become much more involved? 
Not only small private businesses and shops, but even larger 
enterprises, are likely to become privatized. Would this create 
a whole sea change in terms of the economic organization of the 
country?
    Mr. Burns. Mr. Chairman, there's a lot of work to be done 
in order to make those opportunities a reality. As I said 
before, I think what's encouraging is the debate amongst 
Libyans themselves, and you hear it from some in the Libyan 
leadership about the importance of opening up, modernizing the 
economy. It's an economy that's heavily dependent on the public 
sector, as you described before, where standards of living for 
ordinary Libyans have fallen in recent years by contrast to the 
fact that this is a potentially enormously wealthy country.
    So that's a debate that we obviously--Libyans are going to 
have to sort out for themselves, but that we want to encourage. 
And it's not just the United States. This is a place where 
Europeans, where others in the region who have begun to embark 
on the path of reform can offer some encouragement as well, 
because I think that's the way to translate the opportunity 
before Libyans now into real progress in their standard of 
living and to tap into the wealth that is so obvious in the 
country right now.
    The Chairman. Is there any background, any history of 
privatization or the type of enterprise that we think of? I ask 
this, for instance, in the context of that dramatic 
announcement on January 1 by Mr. Balcerowicz in Poland, when 
suddenly he said we are going to have free convertibility of 
our currency, we're going to have free markets in our economy. 
This was revolutionary because the whole thing was gummed up 
and people said, well, we're ruined.
    Of course, politically, this was very costly to the people 
that he was associated with in due course. People said there's 
just too much too soon. But there was a tradition in Poland, a 
sufficient tradition in terms of markets and so forth, so that 
people still remembered what they were, even if things had been 
state-run and socialized for a long time.
    To what extent is there any kind of firmament or background 
in the Libyan business that would enable people to make some 
decisions that would have ramifications that are pretty quick?
    Mr. Burns. Well, Mr. Chairman, I think there is some of 
that tradition in Libya. There's certainly the capacity amongst 
Libyans to develop that kind of entrepreneurial sector. There 
is a lot of years of mismanagement to overcome and that won't 
be easy. Then again, you do have a regime that's demonstrated 
an ability to make those kind of dramatic choices in other 
areas and that certainly suggests that there's at least the 
possibility of doing it in this area as well. It's certainly in 
the best interests of Libyans, and so I hope that that's the 
choice that they'll arrive at.
    The Chairman. For the moment, oil companies in the United 
States and elsewhere, Europe and so forth, are eager to see how 
rapidly things may move along. But clearly for some time have 
wanted to be more active in Libya. Presumably the Libyans will 
want to work that out, with contractual agreements that are 
helpful to the state. How transparent will all this be? We have 
to wait and see, I suppose, how much of the wealth will be 
distributed, and what this will mean in terms of lubricating 
the banking system, the credit system, and the capital of the 
country.
    There are enormous possibilities. From a standing start, 
you have these resources, and suddenly things change. This 
leads to the question of how well-equipped is President Qadhafi 
to manage this? Does he have a good number of technicians, 
other people, economists, wise people, and so forth, around? It 
may or may not have been heard before, but nevertheless, what 
kind of intellectual capital is available in the country right 
now to manage some extraordinary possibilities?
    Mr. Burns. Mr. Chairman, there are some in the government 
now, including some of the most outspoken advocates of reform, 
who have the training, the skills, I think the insights, to 
begin to move those reforms forward. As I said, it's, again, 
it's not just a question of, as we found in other societies in 
the region and the world, of a few people in leadership 
positions. You're trying to hold a whole economy and society 
around.
    But I think the capacity exists. It's going to require a 
lot of hard work, determination, a willingness to make those 
broad dramatic choices about what's in the best interests of 
Libya, and I think the possibility, as you said, is enormous 
right now, and we will certainly do everything we can as this 
process moves forward, as the terrorism and WMD commitments are 
fulfilled, to encourage that and provide what help we can.
    The Chairman. How hospitable will Libya be to NGOs, non-
governmental organizations, the people that are not U.S. 
Government, but who come to Libya with all sorts of good ideas 
with regard to public health, even with regard to democracy-
building. You never can tell what sorts of things might be 
induced in the situation. Are we at a point where these people 
are likely to be received? How does the evolution go in terms 
of outside forces, humane ones, that want to be helpful?
    Mr. Burns. Well, Mr. Chairman, it's going to be a little 
bit of a novel experience because that hasn't been the record 
of recent decades, but as I said, with regard to the example I 
offered on Amnesty International, there's been a willingness to 
do some things that haven't been done in Libya before, and 
certainly with regard to NGOs, private organizations that can 
offer help, whether it's in health care or education or 
economic modernization, it would seem to me that there are 
great opportunities there, and that's certainly something in 
our continuing dialog with the Libyans we'll encourage.
    I think it's also something that--getting back to Senator 
Chafee's question that as congressional delegations travel to 
Libya, it's a point well worth reinforcing, so that what we see 
is not just an engagement between governments, but between 
civil societies as well.
    The Chairman. Perhaps Senator Chafee is headed to Tripoli. 
Not yet, waiting for the lead. Very well. Do you have other 
questions, Senator?
    Let me just thank both of you very much. As you can tell, 
we're tremendously engaged in the subject, as you are. We 
admire the leadership that you've given and that the President 
has given on this. We have started acknowledging this in many 
ways. Even as we are impatient and hopeful, so are you, we 
recognize that.
    Please stay closely in touch. You have some friends here, 
as you can tell, some advocates for change, which we hope will 
be constructive and will come soon. Saying that, the hearing is 
adjourned.
    [Whereupon, at 4:01 p.m., the committee adjourned, to 
reconvene subject to the call of the Chair.]
                              ----------                              


       Responses to Additional Questions Submitted for the Record


 Responses of Hon. William J. Burns, Assistant Secretary of State for 
Near Eastern Affairs, to Additional Questions for the Record Submitted 
                        by Senator George Allen

    Question 1. The Department of State has made numerous 
pronouncements about the absolute, non-negotiable requirement for Libya 
to compensate the victims of the Pan Am 103 bombing. No such public 
pronouncements have been made on behalf of the service men and women 
killed or injured in the LaBelle Discotheque bombing. What is the 
Department of State's position with regard to Libyan compensation for 
the victims of this seminal event in the Libyan war of terrorism 
against the United States?

    Answer. We are urging Libya to address all outstanding terrorism 
claims of Americans, including for the LaBelle Disco bombing. Those 
claims are also the subject of litigation in U.S. courts.

    Question 2. If the Department supports the claims of the LaBelIe 
service men and women, how does the Department intend to notice the 
Libyan government that, like Pan Am 103, these claims must be 
satisfactorily resolved prior to the normalization of bilateral 
relations?

    Answer. Libya's response to the UN requirements on terrorism, and 
its commitment to eliminate its weapons of mass destruction programs, 
has opened the way for direct discussions to chart a path for possible 
improvement in relations. Whether and how this will take place will 
depend upon how well and how quickly it lives up to all of its 
commitments.
    We are in close touch with legal counsel for the American LaBelle 
victims. In our discussions with Libya, we will continue to urge Libya 
to address all outstanding terrorism claims of Americans, including 
LaBelle, in coordination with the claimants and their legal 
representatives.

                                 ______
                                 

  Responses of Hon. Paula DeSutter, Assistant Secretary of State for 
   Verification and Compliance, and Hon. William J. Burns, Assistant 
 Secretary of State for Near Eastern Affairs, to Additional Questions 
        for the Record Submitted by Senator Joseph R. Biden, Jr.

    Question 1a. Section 602(c) of the Nuclear Non-Proliferation Act of 
1978 requires that the State Department, among others, keep the Senate 
Foreign Relations Committee ``fully and currently informed'' regarding 
both significant proliferation activities in foreign countries and what 
the United States is doing about them.
          a. Given that legal obligation, why was this committee not 
        informed of the lengthy negotiations between the United States, 
        the United Kingdom, and Libya until agreement was reached and 
        made public in December?

    Answer. The State Department makes every effort to keep the 
committee fully and currently informed about the activities of other 
nations that are of significance from a proliferation standpoint, as 
required by the statute. Since Libya announced its decision to 
dismantle its WMD and MTCR-class missile programs on December 19, 2003, 
the State Department has briefed several congressional committees and 
their staff on numerous occasions.

    Question 2a. Please provide the background and full details 
regarding the origins of the U.S.-UK agreement with Libya on 
dismantlement of its WMD programs.
          a. Is it the case that Libya proposed this agreement almost a 
        year ago?

    Answer. Libya approached the UK and U.S. almost a year ago. The 
agreement was reached in December 2003. Indeed, Libya did not admit to 
having WMD programs until after the October interdiction of the BBC 
China.

    Question 1b. Section 602(c) of the Nuclear Non-Proliferation Act of 
1978 requires that the State Department, among others, keep the Senate 
Foreign Relations Committee ``fully and currently informed'' regarding 
both significant proliferation activities in foreign countries and what 
the United States is doing, about them.
          b. Why was this committee not informed of the seizure last 
        October of a ship bound for Libya with centrifuge parts?

    Answer. As noted above, the State Department makes every effort to 
keep the committee fully and currently informed in accordance with the 
provisions of the NNPA. The fact that these parts were interdicted was 
publicly confirmed by administration spokespersons in January. The 
effort to interdict these centrifuge parts was carried out by other USG 
Departments that are in a better position to brief the committee on how 
these events unfolded.

    Question 2b. Please provide the background and full details 
regarding the origins of the U.S.--UK agreement with Libya on 
dismantlement of its WMD programs.
          b. Was the United States involved from the start, or did 
        Libya approach only the UK at first.

    Answer. Libya approached the UK, seeking to communicate with both 
the United States and the United Kingdom.

    Question 2c. Please provide the background and full details 
regarding the origins of the U.S.--UK agreement with Libya on 
dismantlement of its WMD programs.
          c. What was the State Department's role in the negotiations, 
        and when did it begin.

    Answer. The State Department led the interagency U.S. team in Libya 
assisting with the WMD elimination. It also participated in the 
negotiations with Libya and the United Kingdom on the objectives for 
that team between the December 19, 2003 announcement and the entry of 
the U.S./UK team into Libya. The State Department was not involved in 
discussions prior to the public announcement on December 19, 2003.

    Question 2d. Please provide the background and full details 
regarding the origins of the U.S.-UK agreement with Libya on 
dismantlement of its WMD programs.
          d. Who, in the State Department, took part in the 
        negotiations?

    Answer. Under Secretary of State John Bolton and employees of the 
Bureaus of Verification and Compliance and Arms Control participated in 
those negotiations. The Nonproliferation and Near East Asia bureaus 
have also played a role in assisting Libya to eliminate its WMD.

    Question 2e. Please provide the background and full details 
regarding the origins of the U.S.-UK agreement with Libya on 
dismantlement of its WMD programs.
          e. If the State Department was not an active participant in 
        the negotiations, then at what level did it follow the progress 
        of those talks?

    Answer. Senior State Department officials were kept informed of the 
discussions.

    Question 2f. Please provide the background and full details 
regarding the origins of the U.S.--UK agreement with Libya on 
dismantlement of its WMD programs.
          f. What role did U.S. intelligence agencies play in the 
        negotiations?

    Answer. The CIA participated in meetings and on-site visits to 
Libya during the discussions.

    Question 2g. Please provide the background and full details 
regarding the origins of the U.S.-UK agreement with Libya on 
dismantlement of its WMD programs.
          g. What role did the Department of Defense play in the 
        negotiations?

    Answer. The Department of Defense participated in formulating U.S. 
objectives in negotiations after December 19, 2003, to guide the work 
of the U.S.-UK team assisting in elimination of Libyan WMD. The Defense 
Department was not involved in discussions prior to the public 
announcement on December 19, 2003.

    Question 3. Was the initial Libya proposal comprehensive in nature? 
In testimony before the Senate Select Committee on Intelligence on 
February 24, 2004, George Tenet indicated the Libyans initially offered 
only to ``renounce'' their WMD programs without necessarily dismantling 
existing programs in a verifiable manner. Can you expand on his 
statement?

    Answer. We would suggest that the committee refer questions 
regarding Director Tenet's testimony to the CIA.

    Question 4. Why do you believe the Libyans were reticent at first 
on disclosing all details on their programs, especially since it was 
their decision to come forward?

    Answer. Since its public announcement on December 19, 2003, Libya 
has been very open about its WMD and missile programs. There may be 
several reasons why Libya was reticent to disclose all details at the 
earliest stages of contact, but listing those reasons would only be 
speculation. We do note that our ability to confront the Libyans with 
substantial intelligence was a major factor in encouraging Libya to 
fully disclose its WMD and missile programs.

    Question 5. What countries are involved in A.Q. Khan's procurement 
network? And what is the U.S. Government doing about that?

    Answer. A.Q. Khan has admitted that Iran, Libya, and North Korea 
were customers of his network and that he used resources in Pakistan, 
the United Arab Emirates and Malaysia to complete the sales. This 
network procured parts from all over the world, including Western 
Europe, for transfer to countries of proliferation concern. The United 
States and other members of the international community are working 
hard to unravel and eliminate the A.Q. Khan network to ensure that 
sensitive nuclear technology is no longer available on the black 
market. The State Department would be happy to have appropriate 
officials discuss our efforts with you in person in more detail.

    Question 6. Are we accepting Pakistan's assertion that this massive 
proliferation proceeded with no government knowledge, let alone 
approval? What will Pakistan do to assure the world that this will 
never happen again? Will Pakistan provide all the information the IAEA 
needs to investigate A.Q. Khan's network and to determine what it 
provided to Libya and Iran?

    Answer. President Musharraf has assured the administration that the 
Government of Pakistan was not participating in any kind of WMD 
proliferation activity. President Musharraf understands the importance 
of shutting down the A.Q. Khan proliferation network and of Pakistani 
cooperation toward that end; he is working toward this goal. We are 
urging Pakistan to take steps to ensure that such activity cannot take 
place again from Pakistan, and we have an ongoing program to help 
Pakistan bring its export controls in line with accepted international 
standards. We have also stressed that A.Q. Khan and his collaborators 
must not be allowed to resume their operations. In that connection, it 
is notable that Khan's pardon is conditioned on his continued 
cooperation and that his alleged co-conspirators in Pakistan remain in 
detention. Pakistan has said it will share all relevant information 
from its investigation with us as well as with the IAEA, and we are 
working with Pakistan toward that end.

    Question 7. Are we accepting Malaysia's assertion that the 
activities of Mr. Tahir in that country were all perfectly legal? What 
will Malaysia do to assure the world that this will never happen again?

    Answer. The Malaysian police conducted an investigation into this 
matter and concluded that Tahir's activities were not in violation of 
Malaysian law. In a speech to the U.S. National Defense University on 
February 11, President Bush called on all states to criminalize 
proliferation. We are ready to assist the Government of Malaysia to 
enact and enforce laws that criminalize proliferation activities. We 
are also offering to help Malaysia and other countries bring their 
export control systems up to international standards so that activities 
such as those by Tahir are not repeated.

    Question 8. Did any of the five major nuclear powers help Libya's 
nuclear weapons program? If so, what are we--and what is the IAEA--
doing about that.

    Answer. Not to our knowledge. However, the USG is working with 
Libya and the IAEA to learn more about Libya's nuclear suppliers. The 
State Department would be happy to have appropriate officials discuss 
this with you in person.

    Question 9. The Department of State has made numerous 
pronouncements about the non-negotiable requirement for Libya to 
compensate the victims of the Pan Am 103 bombing. No such public 
pronouncements have been made on behalf of the service men and women 
killed or injured in the LaBelle Discotheque bombing. What is the 
position of the United States with regard to the need for Libya to 
compensate the victims of the LaBelle Discotheque bombing?

    Answer. We are urging Libya to address all outstanding terrorism 
claims of Americans, including for the LaBelle Disco bombing, in 
coordination with the claimants and their legal representatives. The 
claims of the American LaBelle victims are also the subject of 
litigation in U.S. courts and we are in close touch with their legal 
counsel.
    Libya's response to the UN requirements on terrorism, and its 
commitment to eliminate its weapons of mass destruction programs, has 
opened the way for direct discussions to chart a path for possible 
improvement in relations. Whether and how this will take place will 
depend upon how well and how quickly it lives up to all of its 
commitments.

                                 <all>

</pre></body></html>
